<html>
<title> - SECURITY ASSISTANCE IN AFRICA</title>
<body><pre>[Senate Hearing 114-761]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-761

                     SECURITY ASSISTANCE IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON AFRICA AND
                          GLOBAL HEALTH POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                                  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-951 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  


























                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


               Lester Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

                   SUBCOMMITTEE ON AFRICA AND        
                      GLOBAL HEALTH POLICY        

                 JEFF FLAKE, Arizona, Chairman        

JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  CHRISTOPHER A. COONS, Delaware
JOHN BARRASSO, Wyoming               TOM UDALL, New Mexico
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland

                              (ii)        

  














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Jeff Flake, U.S. Senator From Arizona.......................     1
Hon. Edward J. Markey, U.S. Senator From Massachusetts...........     2
Hon. Linda Thomas-Greenfield, Assistant Secretary for African 
  Affairs, U.S. Department of State, Washington, DC..............     4
    Prepared statement...........................................     5
Hon. Puneet Talwar, Assistant Secretary, Bureau of Political-
  Military Affairs, U.S. Department of State, Washington, DC.....    10
    Prepared statement...........................................    11
Amanda J. Dory, Deputy Assistant Secretary of Defense for African 
  Affairs, Department of Defense, Washington, DC.................    14
    Prepared statement...........................................    16
Statement of Lauren Ploch Blanchard, Specialist in African 
  Affairs, Congressional Research Service, Washington, DC........    27
    Prepared statement...........................................    30

              Additional Material Submitted for the Record

Response of Linda Thomas Greenfield to Question Submitted by 
  Senator Bob Corker.............................................    50
Responses of Linda Thomas Greenfield and Puneet Talwar to 
  Questions 
  Submitted by Senator Bob Corker................................    50
Responses of Amanda J. Dory to Questions Submitted by Senator Bob 
  Corker.........................................................    52
Response of Puneet Talwar to Question Submitted by Senator James 
  E. Risch.......................................................    53

                                 (iii)

  

 
                     SECURITY ASSISTANCE IN AFRICA

                              ----------                              


                         THURSDAY, JUNE 4, 2015

                               U.S. Senate,
   Subcommittee on Africa and Global Health Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
(chairman of the subcommittee) presiding.
    Present: Senators Flake and Markey.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Subcommittee on African Affairs and Global Health Policy will 
come to order.
    U.S. security assistance to Africa is especially relevant 
today given the complex security climate on the continent. 
According to the United Nations, conflicts have displaced more 
than 3.5 million people in the Sahel alone. That is double the 
number at this time last year.
    At the same time, unrest continues to plague the Democratic 
Republic of Congo, the Central African Republic, Sudan, South 
Sudan. Groups such as al-Shabaab, Boko Haram, and the Lord's 
Resistance Army continue to threaten partners in the region. 
That insecurity poses a threat to our own national security by 
creating a potential safe haven for terror groups. It also 
undermines efforts to foster economic growth and development by 
destabilizing institutions, discouraging investment, and 
destroying communities.
    From peacemaking, to counterterrorism, to promoting better 
civilian control of the military, the United States is heavily 
invested in fostering stability in Africa. Today we will 
examine the various components of this assistance.
    Now, in addition to existing programs, the administration 
announced two new security initiatives at the Africa Leaders 
Summit last August: the Security Governance Initiative and the 
African Peacekeeping Rapid Response Partnership, or APRRP. We 
look forward to hearing about how these new initiatives compare 
to existing training efforts and how the State Department 
guards against redundancy across accounts.
    We also look forward to hearing about the effectiveness of 
our efforts to promote security on the continent and the 
receptivity of Africa's civilian and military leadership to 
security cooperation.
    Each of the witnesses today brings a unique perspective to 
the issue at hand, and I have no doubt that they will 
contribute greatly to the debate. I thank all of you for your 
time and for sharing your experience with all of us. We look 
forward to your testimony.
    With that, I would like to recognize the distinguished 
minority member, Mr. Markey, for any comments he might have.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And 
thank all of you for the time you are going to give us today to 
discuss U.S. security sector assistance to Africa, which is an 
increasingly critical element of our efforts there. From 
Somalia to Nigeria, U.S. security sector assistance is part of 
our effort to combat terrorism and enable our partners to 
establish and secure governance.
    We rely on the State Department's leadership to explain and 
account for the overall strategic policy approach to security 
sector assistance in Africa. And we recognize that the State 
Department works closely with the Department of Defense and 
other agencies to form an integrated approach, and we value 
this cooperation.
    We are pleased to have representatives from both agencies 
here today in order to have as complete a discussion about our 
strategic approach to this topic.
    Security sector efforts have a real impact on the ground, 
and interagency coordination is essential to ensure that we are 
covering all the bases. Improving the safety and security of a 
society require many different players. Law enforcement and 
judicial reform, for example, are critical to reassuring people 
that their government takes everyday safety seriously. In 
outright conflict, the role of a peacekeeper can mean the 
difference between life and death for a civilian in need of 
protection.
    In fiscal year 2014, the State Department's budget for all 
of the accounts that contribute to the security sector in 
Africa total approximately just under $400 million. In fiscal 
year 2016, the request is closer to $500 million before we 
factor in this new fund, the Counterterrorism Partnership Fund. 
I understand our private panel will attempt to untangle the 
various funding sources that make up this total, and I look 
forward to that testimony. Broadly speaking, these funds cover 
traditional peacekeeping assistance funds, law enforcement 
funds, and professional military training and assistance. And 
the bottom line is that the amount of funds requested and 
required for these purposes is increasing.
    At last year's Africa Leaders Summit, President Obama 
announced several security sector-focused initiatives for 
Africa. There is APRRP, the African Peacekeeping Rapid Response 
Partnership, and the Security and Governance Initiative, for 
example. I look forward to hearing from our State Department 
witnesses how these new programs combine with existing ones to 
keep us moving toward a clear and articulated strategy on U.S. 
security assistance in Africa.
    As we tackle this issue today, I want to be clear about 
three basic requirements for U.S. security sector assistance in 
Africa.
    One, it must represent the very best of U.S. ideals abroad. 
Our support must reinforce the importance of strong democratic 
institutions. It must insist on the very highest standards in 
human rights, and it must never be used for the abuse of a 
population.
    Second, it must serve to mitigate threats against the 
United States and American citizens overseas. Where we can help 
our allies counter violent extremism within their borders, we 
are contributing to our mutual security.
    And three, it must promote the ability of African countries 
and the African Union to account for their own domestic and 
regional security needs with growing independence from the 
donor community. We need the buy-in of our partners in the 
future of their security, and our programming must reflect this 
need.
    So I, again, thank you all for being here today, and I am 
looking forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Mr. Markey.
    We will go through this panel. Let me just tell you we have 
votes that will start in a couple of minutes. We are hoping to 
be able to just stagger it so we can keep this going. One of us 
will go vote and then the other so we can keep going. We have 
this panel and then one on the other one. But if all things go 
okay, we should be able to wrap up in the time that we told 
you.
    Ambassador Linda Thomas-Greenfield is the Assistant 
Secretary for the Bureau of African Affairs. She is making a 
return trip--many return trips--before this committee or 
subcommittee, and we appreciate that. Prior to this 
appointment, she served as Director General of the Foreign 
Service and Director of Human Resources. She has a 32-year 
Foreign Service career, including several posts in Washington, 
the ambassadorship to Liberia, foreign postings in Switzerland, 
Pakistan, Kenya, the Gambia, Nigeria, and Jamaica.
    Now, Assistant Secretary Puneet Talwar oversees the State 
Department's Bureau of Political-Military Affairs, and he 
manages the State Department's global security relationships 
and international security assistance and the negotiation of 
international security agreements. Mr. Talwar is also the State 
Department's principal liaison with the Department of Defense. 
Before this current appointment, he served as Special Assistant 
to the President and senior director for Iraq, Iran, and the 
Gulf States at the National Security Council. If you are 
wondering how he knew which doors to walk in here, it is 
because he served as chief Middle East adviser for the Foreign 
Relations Committee for a number of years. So welcome back.
    Amanda Dory currently serves as Deputy Assistant Secretary 
of Defense for African Affairs in the Office of the Secretary 
of Defense. Prior to this position, she was Deputy Assistant 
Secretary of Defense for Strategy. Ms. Dory has also been chief 
of staff for the Irregular Warfare and Building Partnership 
Capacity QDR Execution Roadmaps. She previously served as 
Country Director for southern Africa and for west Africa in the 
Office of the Secretary of Defense.
    Now, on the next panel, Lauren Blanchard is the specialist 
in African Affairs with CRS where she provides a nonpartisan 
analysis for the African political, military, and diplomatic 
affairs. She has written extensively on security assistance and 
security issues with U.S. military engagement on the continent. 
Prior to joining CRS, she managed democracy support initiatives 
in east and southern Africa. She has also consulted on 
constitutional reform efforts in Kenya and on developments of 
democratic institutions in southern Sudan.
    Welcome to all of you, and if you could please keep your 
comments to about 5 minutes. Obviously, your testimony is 
entered into the record, and if you could summarize, we would 
appreciate it. Thank you.
    Ms. Greenfield.

STATEMENT OF HON. LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY 
 FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Thomas-Greenfield. Thank you, Chairman and 
Ranking Member Markey, for inviting me to testify at this 
hearing today on security assistance in Africa. I also very 
much appreciate your asking my colleagues from the Department 
of Defense and the Department of State's Bureau of Political 
and Military Affairs to join me at the witness table. Our 
partnership and our coordination are essential to any success 
that we achieve in Africa.
    Given fragility, conflict, and transnational security 
issues, the promotion of peace and security in Africa remains 
one of the United States highest priorities and is critical to 
reaching our democracy and governance, economic, and 
development and security goals on the continent. We are 
actively pursuing policies of partnership and ways to promote 
solutions that yield long-term results.
    In fiscal year 2104, the Department of State committed 
approximately $496 million in bilateral peace and security 
assistance to sub-Saharan Africa. With the overarching goal of 
helping our African partners, our security policy addresses 
three broad priorities. These are peacekeeping and the 
prevention of additional conflict, strengthening the security 
sector in partner states, and countering terrorism and other 
transnational threats.
    Through our bilateral and regional relationships, as well 
as through our engagement in the U.N. Security Council, we are 
focused on enhancing the capabilities of our African partners 
to prevent and respond to crises.
    The administration remains committed to building African 
peacekeeping capacity at the regional, subregional, as well as 
national levels, including through the provision of advisors, 
training, equipment, and other assistance. Peacekeeping 
operations contribute to stability within the respective 
subregions, as well as on the entire continent. We will 
continue to build the capacity of African military and police 
peacekeepers through programs like the International Police 
Peacekeeping Operations Support program, the Global Peace 
Operations Initiative--GPOI-- and the Africa Contingency 
Operations Training and Assistance program, which is primarily 
funded through GPOI. These initiatives, along with the new and 
complementary African Peacekeeping Rapid Response Partnership--
APRRP that you referred to--which focuses on strengthening 
critical gaps in rapid response capabilities, are critical for 
the long-term success of peace-building on the continent.
    In the African context, we know that achieving our shared 
peace and security goals depends on cooperating with and 
strengthening our partners' security institutions. That is why 
President Obama launched the Security Governance Initiative--
SGI--at the Africa Leaders Summit last August. SGI is a 
multiyear effort that will initially focus on six partner 
countries: Ghana, Kenya, Mali, Niger, Nigeria, and Tunisia. SGI 
provides us the opportunity to support partners to improve the 
management and accountability of the security sector, which is 
linked to their ability to more effectively and efficiently 
deliver security and justice to their citizens. SGI also 
features a more holistic interagency approach for assisting our 
partners to more strategically and comprehensively address 
shared security challenges and emerging threats.
    The continued violence perpetrated by al-Shabaab, Al Qaeda 
in the Islamic Maghreb, Boko Haram, and other terrorist groups 
on the continent of Africa continues to be of concern. We are 
strongly committed to assisting African countries to increase 
their capacity to address the immediate threats posed by 
terrorist organizations and to prevent terrorists from using 
the region to recruit, seek sanctuary and secure resources and 
financing from their people. We are pursuing these goals 
primarily through the Trans-Sahara Counterterrorism Partnership 
and the Partnership for Regional East Africa Counterterrorism.
    Other transnational issues such as drug trafficking, 
maritime crime, and wildlife trafficking are key issues that 
also demand our attention. Through U.S. assistance, African 
partners will be better able to adhere to international 
commitments and to contribute to global security.
    Mr. Chairman, on the Gulf of Guinea maritime security, we 
truly appreciate the resolution you sponsored last Congress 
condemning maritime crime in the Gulf of Guinea. And we 
continue to work with our international and African partners in 
their efforts to implement the Yaounde Process out of the 2013 
West and Central African States Maritime Summit in Cameroon.
    Finally, as I noted during my confirmation hearing in 2013, 
governments that respect human rights, including women's 
rights, and democratic norms make stronger and more stable 
partners for economic growth, development, peace, and 
prosperity. This remains a critical issue for us. We continue 
to encourage security services to respect human rights and hold 
violators of human rights accountable, because doing so 
promotes the legitimacy of these services. It improves the rule 
of law, and it undermines the extremist rhetoric calling on 
people to seek alternative justice systems.
    I look forward to receiving your questions. Thank you very 
much.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

             Prepared Statement of Linda Thomas-Greenfield

    Chairman Flake, Ranking Member Markey, and distinguished members of 
the committee, thank you for inviting me to testify at this important 
hearing on security assistance to Africa. Thank you also for asking my 
colleagues from the Department of State's Bureau of Political-Military 
Affairs and the Department of Defense to join me at the witness table. 
Our partnership and coordination are essential to any success.
                  support to u.s. strategic interests
    Given state fragility, conflict, and transnational security issues, 
the promotion of peace and security in Africa remains one of the United 
States highest priorities, and is critical to attainment of our 
democracy and governance, economic, and development goals. We are 
actively pursuing policies of partnership and ways to promote solutions 
that yield long-term results. In fiscal year 2014, the Department of 
State committed approximately $496 million in bilateral peace and 
security assistance to sub-Saharan Africa. Resources are used to 
support conflict prevention and mitigation, atrocity prevention, 
stabilization operations, security sector reform, peacekeeping 
operations, targeted counterterrorism and counternarcotics initiatives, 
counterwildlife trafficking, nonproliferation, conventional weapons 
destruction, and maritime safety and security programs throughout the 
region. With the overarching goal of helping our African partners, our 
security policy addresses three broad priorities: peacekeeping and the 
prevention of additional conflicts, strengthening the security sector 
in partner states, and countering terrorism and other transnational 
threats.
    Through our bilateral and regional relationships as well as through 
our engagement in the U.N. Security Council, we are focused on 
enhancing the capabilities of our African partners to prevent and 
respond to crises. And as much as our approach encompasses traditional 
security sector partnerships, it also reflects a commitment to 
integrated security, to include women in the military and in the 
military's relationship with communities because it is accompanied by 
strategic initiatives that engage communities keeping and maintaining 
peace.
    The administration remains committed to building African 
peacekeeping capacity at the regional, subregional, and national 
levels, including through the provision of advisors, training, 
equipment, and other assistance. Peacekeeping operations in Mali, the 
Central African Republic, Cote d'Ivoire, Democratic Republic of Congo, 
Liberia, Somalia, South Sudan, and Sudan contribute to stability within 
the respective subregions, as well as the entire continent. In South 
Sudan, the U.N. peacekeeping operation saved tens of thousands of lives 
since conflict erupted in December 2013, by taking the unprecedented 
step of allowing vulnerable civilians to shelter in its bases. More 
than 130,000 civilians continue to shelter at U.N. compounds across 
South Sudan. We will continue to build the capacity of African military 
and police peacekeepers through programs like the International Police 
Peacekeeping Operations Support (IPPOS) program, the Global Peace 
Operations Initiative (GPOI), and the Africa Contingency Operations 
Training and Assistance (ACOTA) program, which is primarily funded 
through GPOI. These initiatives, along with the new and complementary 
African Peacekeeping Rapid Response Partnership (APRRP), which focuses 
on strengthening critical gaps in rapid response capabilities, are 
critical for the long-term success of peace-building in Africa.
    Through the Early Warning and Response Partnership (EWARP), a 
Presidential initiative announced at the August 2014 U.S.-Africa 
Leaders Summit, we will continue to develop a full-spectrum of crisis 
management capabilities and strengthen the capacity of West African 
states and the African Union to not only improve their response 
mechanisms once a crisis develops, but to also proactively identify and 
prevent crises in a more proactive manner. Through consultations with 
the Economic Community of West African States (ECOWAS) and the United 
States Mission to The African Union (USAU), and an extensive needs 
assessment, State and USAID have identified concrete lines of effort to 
be implemented over the next 5 years which meet U.S. objectives, 
respond to ECOWAS and African Union requests, and will enhance the 
long-term early warning and response assets and capabilities of ECOWAS, 
its 15 member states and the African Union.
    In the African context, we know that cooperating with and 
strengthening our partners' security institutions is a critical 
element, along with civilian assistance, of achieving our shared peace 
and security goals. That's why President Obama launched the Security 
Governance Initiative (SGI) at the U.S.-Africa Leaders Summit last 
August. SGI is a multiyear effort that will initially focus on six 
partner countries--Ghana, Kenya, Mali, Niger, Nigeria, and Tunisia. SGI 
provides us the opportunity to support partners to improve the 
management and accountability of the justice and security sectors, 
which are linked to their ability to more effectively and efficiently 
deliver security and justice to citizens. Through SGI we work together 
with partner countries to identify priority focus areas that will have 
a significant impact on citizen security and to jointly develop 
objectives and intended outcomes from the SGI partnership. SGI features 
a more holistic interagency approach for assisting our partners to more 
strategically and comprehensively address shared security challenges 
and emerging threats. SGI also emphasizes the importance of joint 
assessment and analysis to ensure that partner countries are actively 
engaged in identifying the security governance challenges and 
opportunities that shape SGI engagement.
    The continued violence perpetrated by al-Shabaab, Al Qaeda in the 
Islamic Maghreb (AQIM), Boko Haram, and other terrorist groups is 
concerning. In too many places the aspirations of Africa's young people 
are thwarted by political instability, armed conflict, and violent 
extremism. The al-Shabaab attack on Garissa University College in Kenya 
is a recent example of the horrific brutality of these violent 
extremists, where young people who were pursuing an education in hopes 
of contributing to their communities and their country, were targeted 
and killed. We are strongly committed to assisting African countries to 
increase their capacity to address the immediate threats posed by 
terrorist organizations and to prevent terrorists from using the region 
to recruit, seek sanctuary, or secure resources and financing.
    We are pursuing these goals primarily through the Trans-Sahara 
Counterterrorism Partnership (TSCTP) and the Partnership for Regional 
East Africa Counterterrorism (PREACT). These programs mobilize 
resources and expertise from multiple U.S. Government agencies to 
assist our African partners in building security sector capacity, 
extending effective government control over remote areas terrorists may 
seek to exploit as safe havens, addressing the underlying causes of 
radicalization, and increasing the capacity of moderate leaders to 
positively influence populations that could be vulnerable to 
radicalization. Programming has strengthened the ability of partners to 
collect and analyze intelligence, support longer range patrolling, and 
understand strategies required to counter the violent extremist 
message.
    Other transnational issues such as drug trafficking, maritime 
crime, and wildlife trafficking are key issues that also demand 
attention. U.S. programming in all these areas focuses on increasing 
national capacity and promoting regional cooperation. Through U.S. 
assistance, African partners will be better able to adhere to 
international commitments and contribute to global security. On Gulf of 
Guinea maritime security, I appreciate the resolution you sponsored 
last Congress, Mr. Chairman, condemning maritime crime in the Gulf of 
Guinea. We continue to work with our international partners to support 
our African colleagues in their effort to implement the Yaounde Process 
out of the 2013 West and Central African States' Maritime Summit in 
Cameroon.
    Finally, as I noted during my confirmation hearing in 2013, 
``governments that respect human rights, including women's rights, and 
democratic norms make stronger and more stable partners for economic 
growth, development, peace, and prosperity.'' This remains a critical 
issue for me. We continue to encourage security services to respect 
human rights and hold violators of human rights accountable, because 
doing so promotes the legitimacy of these services, improves the rule 
of law, and undermines extremist rhetoric calling on people to seek 
alternative justice. Additionally, as expressly targeted through SGI, 
our programs focus on developing accountability and oversight to 
mitigate corruption and bolster citizen input to the security system.
               effectiveness of u.s. security assistance
    While the full impact of U.S. security assistance to help build the 
military, police, and other security service capacity of sub-Saharan 
African countries may not be fully apparent for a generation, a 
persistent investment does provide near-term successes and will provide 
long-term effects. Our assistance aims to contribute toward building 
the indigenous military and police capacity of our African partners to 
ensure a more professional security apparatus that respects civilian 
control and human rights. Those professional African forces are 
critical to support our security policy interests on the continent.
    Conflict in Africa threatens U.S. national security interests. 
Nowhere is that more evident than in the Horn of Africa. Our engagement 
in Somalia, where we have supported the Federal Government of Somalia 
and the African Union Mission in Somalia (AMISOM) in their efforts to 
stabilize the country and expand the reach of legitimate governance is 
a sign of our commitment to addressing conflict in the region. The 
success of AMISOM in reducing the territory held by al-Shabaab and 
stabilizing the Government of Somalia has come after years of 
investment from the international community in equipment, advisory 
support, and predeployment training. AMISOM has played a pivotal role, 
but long-term stability in Somalia depends on the creation of capable 
and regionally representative national security forces and a stronger 
Somali National Army. The Somali National Army is in its formative 
stages today, but the integration of regional security forces into the 
National Army in parallel with the political reconciliation will help 
bolster security to all regions of the country.
    We cannot prevent every terrorist attack, but we can ensure that 
states are better prepared to work together and respond. For example, 
in 2012 and 2013, African forces--many of them U.S.-trained--responded 
to the crisis in Mali created by an internal conflict, coup d'etat, and 
the seizure of territory by terrorists, working alongside the French 
military to push back AQIM from safe havens in northern Mali. The 
intervention left AQIM scattered, fractured, and demoralized. And then, 
in 2013, the Malians took to the polls in a democratic election--an 
election that was a powerful rebuke to the restrictive rule and violent 
extremist ideology that AQIM and its allies imposed.
    In addition, U.S. programming addresses new and present threats to 
stability and security in Africa. For example, IEDs used by Boko Haram 
pose an increasingly deadly threat to Nigeria and its neighbors. The 
United States stands out as the only donor partner providing counter-
IED training to the law enforcement community and security forces in 
Nigeria, and we have found that this training has been paying 
dividends. Upon returning from Antiterrorism Assistance (ATA) training, 
Post-Blast Investigation and Explosive Incident Countermeasure students 
recommended more practical exercises to their academy leadership for 
bomb technician training and worked with ATA to develop train-the-
trainer curriculum to foster sustainable counter-IED capabilities for 
Nigerian security forces.
    U.S. support for African Union-led efforts to counter the Lord's 
Resistance Army (LRA) is another good example of how we can leverage 
our involvement to enhance regional cooperation and capacity to counter 
cross-border threats. Prior to the transition to DOD funds in late FY 
2012, State provided approximately $57 million in State Department 
funds, primarily to support Uganda's ability to counter the LRA. As 
part of holistic support from State, DOD, and USAID and working in an 
extremely difficult operating environment across three countries, the 
forces of the AU Regional Task Force, national security forces, and 
LRA-affected communities, local and regional actors have significantly 
degraded the LRA's capabilities, increased defections, and improved 
protection and resilience of local communities.
    U.S. support for the criminal justice sector in Africa, including 
for police and the courts, has registered successes as well. In the 
Democratic Republic of the Congo, a U.S.-funded project has helped to 
improve the investigation and prosecution of cases of sexual and 
gender-based violence. It trains police officers and investigators with 
doctors and lawyers, helping them to understand the terms and 
procedures that each uses in an instance of sexual and gender-based 
violence (SGBV), facilitating coordination between them. As a result, 
police, doctors, and prosecutors have formed networks in their own 
communities to better address and process SGBV cases.
    In the Central African Republic, the Department is supporting the 
reestablishment of criminal justice institutions with training, 
technical assistance, and basic equipment for police, gendarmerie, 
investigators, prosecutors, judicial staff, and corrections officers. 
We are already seeing success. U.S. technical assistance, equipment, 
and support are aiding the investigation and preparation of more than 
50 cases for the upcoming Criminal Court Session, the first for Bangui 
in more than 2 years. The Court session will enable dozens of 
individuals and parties to obtain a long-needed decision of justice on 
their cases.
    Security sector reform efforts in Liberia have also borne fruit. 
The Armed Forces of Liberia (AFL) and the Liberian National Police 
(LNP)--were both largely rebuilt from the ground up following the 
devastating civil war. Both of these institutions are now preparing for 
the withdrawal of the United Nations Mission in Liberia (UNMIL) and 
currently provide for nearly all internal security requirements in 
Liberia. The LNP has proven capable of providing internal security 
under normal conditions and also during some unexpected and 
extraordinary ones, including the Ebola outbreak. Timely training, 
equipping, and mentorship of civilian law enforcement enabled the LNP 
to maintain security during the outbreak. Throughout the crisis, the 
LNP showed its increasing competency by using force judiciously, 
increasing community participation, and generally deescalating conflict 
as it occurred.
    With the urging of the United States, the Government of Liberia has 
removed corrupt and obstructive senior officials within the LNP and the 
Liberian Drug Enforcement Agency (LDEA), and replaced them with honest 
and professional officers. These important steps have led to key 
reforms and progress in organizational development and capacity within 
both organizations. As part of the U.S. West Africa Cooperative 
Security Initiative (WACSI), U.S. assistance also resulted in the first 
meaningful Liberian Drug Law and DEA Act being signed into law by 
President Johnson-Sirleaf. Both pieces of legislation are ground-
breaking in their scope and aim to prevent Liberia from becoming a 
transshipment location or target destination for international 
narcotics traffickers. The United States has similarly supported 
specialized law enforcement units that are disrupting drug networks and 
other illicit trafficking across West Africa, including 
operationalizing a Transnational Crime Unit in Liberia and in 
neighboring Sierra Leone and creating Sensitive Investigations Units 
(SIU) in Ghana and Nigeria.
    We continue working to increase African states' institutional 
capacity to analyze transnational organized crime trends, cooperate 
across borders, and conduct thorough investigations that facilitate 
prosecutions. As a result of U.S. assistance, several African states 
have joined the Egmont Group of Financial Intelligence Units, which 
encourages successful prosecutions and successful information-sharing 
resulting in assets forfeited. Our Regional Training Center (RTC) in 
Accra has trained over 2,000 officials since its inception in 2011, and 
recent evaluation findings indicate that nearly 40 percent of 
respondents reported cooperating with fellow RTC alumni across borders, 
as well as nearly 60 percent reporting that use of skills learned at 
the RTC has resulted in successful criminal prosecutions in their 
countries. We receive letters and emails from individuals sharing these 
successes as well, such as a female police officer from Ghana who 
listed the various RTC-taught skills and technological approaches she 
used to conduct a successful antihuman trafficking operation. We are 
encouraged to see such tangible results from a program that is less 
than 5 years old, and will use this feedback to continue adjusting and 
improving our training approaches.
                contributions to peacekeeping operations
    The Africa Contingency Operations Training and Assistance (ACOTA) 
program, largely funded by GPOI, is critical to our effort to build 
peace operations capacity among African partners. ACOTA provides 
training to contingents deploying to U.N. and AU operations, while 
building the capacity of our African partners to take over training 
themselves. Of the 26 current ACOTA partners, 22 are currently engaged 
in U.N. and AU peace support operations. ACOTA has trained and deployed 
approximately a quarter of a million military peacekeepers since 2003 
and continues to be the premier predeployment program by training 77 
battalions per year. In addition, U.S. Africa Command has conducted 
specialized and critically needed peacekeeping training for several 
GPOI partner countries in Africa, including but not limited to 
logistics, higher level staff, counter-IED, and gender in peace 
operations training.
    The important role of policing and rule of law in peacekeeping and 
stabilization operations in Africa and the need to fill a critical gap 
there cannot be overstated. Since 2010, the United States, through the 
U.S. Department of State, Bureau of International Narcotics and Law 
Enforcement Affairs' (INL) IPPOS program, has trained 5,619 police (35 
Formed Police Units (FPU) and 699 Individual Police Officers (IPOs) for 
deployments to five U.N. peacekeeping operations in Africa, including 
Darfur, Liberia, South Sudan, Mali, and the Central African Republic. 
The African Police Contributing Countries (PCCs) who have benefited 
from IPPOS training assistance include Benin, Burkina Faso, Cameroon 
Ghana, Togo, and Senegal.
    African countries have made clear that rapidly responding to crises 
is at the top of their peace and security agenda. As mentioned earlier 
in the testimony, APRRP is a new investment of $110 million to build 
the capacity of African forces to deploy peacekeepers rapidly in 
response to emerging conflicts. Such rapid deployments are critical to 
saving lives amidst emerging crises.
    APRRP builds on our long-standing commitment to developing partner 
capacity to support African countries and regional organizations to 
meet the challenges they face. The United States will initially partner 
with six countries--Ghana, Ethiopia, Rwanda, Senegal, Tanzania, and 
Uganda--to develop a rapid response capability program. This program 
will focus on improving capacity in areas such as mission management, 
transportation, equipment maintenance and repair, logistics, 
engineering, and interoperability with other Africa-based peacekeeping 
forces. Under this program, African partner nations will commit to 
maintaining forces and equipment ready to rapidly deploy as part of 
U.N. or AU missions seeking to respond to emerging crises.
    I look forward to hearing from my colleagues, listening to your 
insights, and consulting you further as we address these serious 
security issues. Thank you for your invitation, and for your 
consideration and support.

    Senator Flake. Thank you.
    Mr. Talwar.

STATEMENT OF HON. PUNEET TALWAR, ASSISTANT SECRETARY, BUREAU OF 
     POLITICAL-MILITARY AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Talwar. Chairman Flake, Ranking Member Markey, thank 
you very much. And I commend you for focusing on this critical 
topic.
    It is a pleasure to be back before the committee today, and 
as you mentioned, I spent a considerable amount of time here, 
about a dozen years or more, sitting on the benches behind you 
actually staffing the Vice President. If I could just add as a 
personal note, as I sit on this side of the dais, the tragic 
loss of Beau weighs very heavily. Beau was simply one of the 
finest human beings I have known, and I join all of you in 
mourning his loss.
    Mr. Chairman, in Africa, we see a region that is 
increasingly taking charge of its own security. We welcome the 
efforts to provide African solutions to African security 
challenges. We have made substantial progress in addressing 
instability in Africa. Yet, challenges remain.
    As you mentioned, conflict persists in the Central African 
Republic, Democratic Republic of Congo, Mali, Somalia, and 
South Sudan. Terrorist groups, such as Al Qaeda in the Islamic 
Maghreb, al-Shabaab, and Boko Haram threaten the regional and 
international order. Many countries have difficulty monitoring 
their maritime domain, leading to piracy and illegal fishing. 
Narcotics trafficking fuels corruption and undermines 
governments.
    These challenges point to the need for strong government 
institutions. And we are committed to helping our African 
partners build these institutions and reform their security 
sectors.
    We want to work closely with you to achieve four main goals 
for our security assistance in Africa.
    First, we want to build peacekeeping capacity.
    Second, we want to build military capabilities related to 
counterterrorism operations.
    Third, we want to support the professionalization efforts 
of African militaries to have greater respect for human rights, 
the rule of law, and civilian control of the military.
    And fourth, we want to help African partners police their 
maritime domain and combat other transnational threats like 
poaching.
    The challenges are complex, and the goals we have set 
require that we work together across our Government. And I 
would like to take a quick moment to describe how we coordinate 
our efforts.
    Our planning process begins with the Joint Regional 
Strategies, which are developed in Washington in consultation 
with our embassies abroad. Under the Joint Regional Strategy, 
each embassy creates its own integrated country strategy which 
outlines the U.S. Government's goals and objectives in each 
country, country by country. The Department of Defense also 
makes its recommendations for most security assistance programs 
based on its own planning. And then my Bureau convenes annually 
in the spring roundtables where we bring together all the key 
players in the interagency and we set our priorities, we define 
our roles and our responsibilities. And this process ultimately 
yields the budget request that makes its way to you.
    Now, there are a number of mechanisms by which we deliver 
security assistance to Africa. This means that we not only need 
to stay coordinated but also that we carefully monitor and 
evaluate the impact of our security assistance. Mr. Chairman, 
let me highlight briefly a few examples of where our security 
assistance has made a difference.
    First, in response to the 2013 insurgency in Mali, we 
provided food, fuel, and water to African troops within a month 
of their deployment to ensure they could operate in the harsh 
desert environment.
    Second, the United States has provided airlift and 
refueling services for French counterterrorism operations 
across the Sahel. This is a good example of burden-sharing and 
it is one that ultimately means less expenditures for the 
United States.
    Third, for the Trans-Sahara Counterterrorism Partnership 
program, we are providing critical training and equipment to 
our partners so they can fight the terrorist threats in the 
Lake Chad Basin and the Sahel.
    Finally, Mr. Chairman, I want to take this opportunity to 
ask for your continued support in two areas.
    First, major procurements such as aircraft require years of 
sustainment, including spare parts, maintenance, and training. 
The costs of sustainment can actually and often are actually 
much greater than the initial investment. We do not have 
sufficient funding to sustain major systems in Africa. So we 
are asking for a $9 million increase in foreign military 
financing for Africa counterterrorism sustainment in fiscal 
year 2016 to meet part of this requirement.
    Second, I would also greatly appreciate your support to 
fully fund our request for a $2.4 million increase in IMET, 
which allows us to train future military leaders who understand 
the United States and our values.
    Mr. Chairman, Ranking Member Markey, I look forward to 
working closely with the committee on security assistance 
programs in Africa, and I look forward to your questions. Thank 
you.
    [The prepared statement of Mr. Talwar follows:]

                  Prepared Statement of Puneet Talwar

    Chairman Flake, Ranking Member Markey, and distinguished members of 
the committee, thank you for allowing me to speak with you today about 
security assistance in Africa. I commend the committee for its focus on 
this critical topic. Thank you also for inviting my colleagues from the 
Department of State's African Affairs Bureau and the Office of the 
Secretary of Defense. Our teams work hand in hand to help our partners 
in Africa manage security and stability problems.
    My statement will discuss the nature of security challenges in 
Africa, how U.S. security assistance addresses these problems, how 
different agencies in the U.S. Government work together to plan and 
implement security assistance in Africa, how we measure the impact of 
our assistance, and our requests of Congress moving forward.
                     security challenges in africa
    We have made substantial progress addressing instability in Africa 
over the last decade. Our African partners are increasingly taking 
charge of their own security. We welcome these efforts to provide 
African solutions to African security challenges.
    However, significant and complex security challenges remain. 
Conflict persists in the Central African Republic, Democratic Republic 
of the Congo, Mali, Somalia, and South Sudan. Terrorist groups such as 
Al Qaeda in the Islamic Maghreb (AQIM), al-Shabaab, and Boko Haram 
threaten the regional and international order. Many African countries 
have difficulty monitoring their maritime domain, leading to piracy and 
other significant economic and security threats. Narcotics trafficking 
fuels corruption and undermine governments. And while some sub-Saharan 
African countries have achieved rapid economic growth in recent years, 
nearly 70 percent of sub-Saharan Africans live in extreme poverty--
contributing to insecurity by feeding the desperation that can drive 
individuals toward crime and terrorism.
    All of these problems point to the need for strong government 
institutions. We are committed to helping our African partners build 
institutions and reform security sectors, so that they can manage these 
challenges over the long term.
              goals for u.s. security assistance in africa
    We want to work closely with you to achieve four main goals:

  <bullet> First, we want to continue strong support for support 
        peacekeeping operations throughout Africa, including in the 
        Central African Republic, Cote d'Ivoire, Liberia, Mali, 
        Somalia, South Sudan, and Sudan. We provide urgently needed 
        logistics support, training, and equipment for African troops 
        participating in these missions. We also build the long-term 
        peacekeeping capabilities of our African partners through the 
        Global Peace Operations Initiative (GPOI) and the new Africa 
        Peacekeeping Rapid Response Partnership (APRRP)--or ``A-PREP'' 
        for short.
  <bullet> Second, we want to build the military capabilities of our 
        partners to conduct counterterrorism operations. Through the 
        Trans-Saharan Counterterrorism Partnership (TSCTP) and the 
        Partnership for East Africa Counterterrorism (PREACT), we 
        provide counterterrorism training and equipment to African 
        militaries in East and West Africa.
  <bullet> Third, we support the professionalization efforts of African 
        militaries with training and advisory support, including 
        through the Security and Governance Initiative (SGI) and the 
        African Military Education Program (AMEP). Through our 
        educational programs, we are helping to build African military 
        forces that have a greater respect for human rights, the rule 
        of law, and civilian control of the military.
  <bullet> And fourth, we help African partners police their maritime 
        domain and combat other transnational threats like poaching. 
        Our Africa Maritime Security Initiative (AMSI) and Africa 
        Conflict and Stabilization Border Security (ACSBS) programs, 
        respectively, provide training to select African security 
        forces to police their maritime borders and counter poaching.
Formulating, Planning, and Implementing Security Assistance in Africa
    The Departments of State and Defense work closely to formulate, 
plan and implement security assistance in Africa. The Presidential 
Policy Directive on Security Sector Assistance (PPD-23), released by 
the administration in 2013, guides this process. The directive mandates 
an inclusive, deliberate, whole-of-government approach to U.S. security 
sector assistance, which aligns activities and resources with our 
national security priorities. The directive calls for transparency and 
coordination across the U.S. Government to develop long-term strategies 
for security sector assistance, which build the capacity of our 
partners in a way that is strategic and sustainable.
    In real terms, this means that our planning process begins with the 
Joint Regional Strategy, which are strategic plans developed in 
Washington by regional bureaus in consultation with functional bureaus 
and our missions abroad. Under the Joint Regional Strategy, each 
mission creates an Integrated Country Strategy, which includes input 
from other agencies at posts and in Washington. These strategies 
outline the U.S. Government's goals and objectives in a particular 
country and region.
    Based on the goals and objectives of the Joint Regional Strategy, 
the Integrated Country Strategy, and Department of Defense theater 
campaign plans, the Department of Defense develops recommendations for 
most security assistance programs, and submits them to the Department 
of State for consideration. My Bureau then convenes annual roundtables 
on security assistance each spring. At these roundtables, State 
Department and interagency counterparts come together to discuss the 
needs of a particular region and the status of existing programs. These 
roundtables inform our resourcing requests, which we coordinate with 
our regional bureau counterparts and submit to the Department of 
State's Office of Foreign Assistance for consideration. This process 
ultimately yields the requests submitted to the Office of Management 
and Budget and later to Congress.
    Within the State Department, the Bureau of Political-Military 
Affairs (PM) manages for of the main security assistance accounts: 
Peacekeeping Operations (PKO), Foreign Military Financing (FMF), the 
International Military Education and Training (IMET) program, and the 
Global Security Contingency Fund (GSCF)--the last of which DOD and my 
Bureau comanage.
    Proposals for specific programs are developed and coordinated in 
different ways, through mechanisms that are both formal and informal. 
GPOI, APRRP, TSCTP and PREACT program proposals--funded by PKO--are 
developed through cables and proposal forms. For TSCTP--DOD, State and 
USAID participate in an annual conference to ensure effective 
coordination. Proposals for GSCF programs originate from Combatant 
Commands, Posts, and State and Defense senior leadership.
    Coordination with DOD on Africa security assistance is perhaps most 
important in the counterterrorism (CT) realm, where DOD has its own 
authorities but still requires State concurrence. My Bureau works 
closely with the relevant regional bureau and the Bureau of 
Counterterrorism (CT) to ensure a consolidated State position. In 
considering whether to support DOD proposals for counterterrorism 
assistance, State examines whether the assistance is consistent with 
foreign policy and is complementary with State's programs.
    Security assistance in Africa is implemented through DOD, through 
contracts managed by State, or some combination of the two. While State 
has the overall policy lead on FMF and IMET, both accounts are 
currently implemented entirely by DOD.
    For PKO-funded programs, the State Department determines the most 
efficient mechanism for implementing programs, based on assessments of 
cost, timeliness, host government preferences, and the implementer's 
capabilities. Possible options for implementation include DOD, State 
Department contracts, and grantee organizations.
    GPOI programs are implemented either through the State-managed 
Africa Contingency Operations Training and Assistance (ACOTA) program, 
or through U.S. Africa Command (USAFRICOM). USAFRICOM will also serve 
as the primary implementer for APRRP activities.
    The TSCTP program is the best example of a hybrid approach to 
implementation--the bulk of equipment and training for new equipment is 
implemented through State contracts, while skills-based training 
activities are generally implemented through DOD.
    For GSCF, an authority that permits State and DOD to pool funding 
and expertise to address emergent and urgent challenges in the security 
and justice sectors, State and DOD jointly formulate, fund, implement, 
and evaluate programs.
The Impact of Assistance in Africa
    The State Department measures the impact of our security assistance 
in Africa through a variety of mechanisms. We are working to develop a 
monitoring and evaluation program for FMF and IMET programs worldwide. 
Right now, our Embassy country teams formally track IMET graduates that 
are in ``Positions of Prominence'' (such as General Officers and Chiefs 
of Defense). This allows State and DOD to maintain relationships with 
military leaders that understand the United States and appreciate the 
emphasis we place on professionalization, civilian control of the 
military, respect for human rights, and success on the battlefield.
    For PKO, the State Department generally relies on contractors to 
implement monitoring and evaluation (M&E) activities by program. We 
currently have M&E efforts ongoing for the GPOI, TSCTP, and PREACT 
programs. Since the inception of GPOI, for example, my Bureau has 
contracted a metrics and evaluation team. This team collects extensive 
data to enable our program management office to track outputs, 
outcomes, and other performance-related measures. PM is working with AF 
to develop M&E programs for the other PKO funded programs.
    Similar to PKO, State and the Defense Department contract out to a 
third-party to conduct M&E for GSCF projects. As GSCF is a new program, 
M&E efforts are still in the nascent stages.
    I would like to take a minute to highlight a few examples of our 
successes across the continent.
    The GPOI program's capacity-building efforts are enabling partner 
countries to train, sustain, and deploy peacekeepers. We have worked 
hand in hand with our African partners to develop instruction programs 
and training centers. Our progress is most evident among the six APRRP 
countries (Ethiopia, Ghana, Rwanda, Senegal, Tanzania, and Uganda), all 
of which are GPOI partners, and represent some of the most capable 
peacekeeping contributors on the continent. Ethiopia, for example, is 
the largest single contributor of peacekeepers in the world, deploying 
a critical stabilizing force into the contested Abyei region between 
South Sudan, as well as providing peacekeepers to missions in South 
Sudan, the Darfur region of Sudan, and Somalia. Similarly, Tanzania 
responded to an urgent request for forces to establish the Force 
Intervention Brigade to strengthen the U.N. peacekeeping mission in the 
Democratic Republic of the Congo. This force has played an integral 
role in enhancing civilian security and helping stabilize the eastern 
DRC.
    In response to the 2013 insurgency in Mali, we provided food, fuel, 
and water to help African troops operate in the harsh desert 
environment. We did this within a month of African peacekeepers 
arriving in country.
    For a relatively small amount of funding, the United States 
provided airlift and refueling services for French counterterrorism 
operations across the Sahel. The U.S. Government has spent roughly $3.5 
million per month to support the French. The Defense Department 
estimates that conducting these operations on our own would cost $120 
million per month. While the situation on the ground remains 
challenging, French operations helped create the conditions for last 
month's signing of Mali's peace agreement by the government and some 
armed groups. This is an important step on the path toward sustainable 
peace, and we are watching closely as talks continue. Bolstering this 
fragile effort to ensure peace remains the best hope for long-term 
stability in the region.
    For the Trans-Sahara Counterterrorism Partnership program, we are 
providing critical training and equipment capabilities to directly help 
partner nations actively fighting the terrorist threats in the Lake 
Chad Basin and Sahel. We recently provided 850 sets of body armor to 
Cameroonian forces that are actively fighting Boko Haram on their 
borders. This protective equipment helps to limit the number of 
casualties that Cameroonian military forces are incurring, inherently 
fostering a greater willingness among these forces to more robustly 
execute mission tasks.
    In Somalia, we have spent over $430 million in PKO funds to provide 
logistics support, training, equipment and advisory support for African 
troops participating in the African Union Mission in Somalia. Since 
AMISOM first deployed in 2007, the force has grown from 4,000 troops to 
over 22,000 and has made tremendous strides in the past several years 
by bringing Mogadishu and other key urban areas (such as Baidoa, 
Beletweyne, and Kismaayo) under its control, in cooperation with the 
emerging Somali National Army (SNA). Most recently, Operation Indian 
Ocean, a joint-AMISOM-SNA offensive, succeeded in liberating Baarawe, 
the last major al-Shabaab stronghold in the country.
Sustaining our Assistance
    One of our foremost challenges is sustaining counterterrorism 
programs, and for that we seek your support. Major procurements--such 
as aircraft--often require years of sustainment, including spare parts 
and follow-on operational and maintenance training. The costs of 
sustainment are generally much more than the initial investment. While 
State Department funds, such as FMF, can be used to sustain major 
systems in Africa, we do not have sufficient funding to do so. 
Accordingly, we ask for a $9 million increase in FMF for Africa 
counterterrorism sustainment, which we requested in FY16. This extra 
funding--while critical--will not sustain all of our programs, and we 
are working with the Defense to address this problem.
                               conclusion
    More than ever before, we share security responsibilities with 
other nations to help address security challenges in their countries 
and regions, whether fighting alongside our forces; countering 
terrorist and international criminal networks; participating in 
international peacekeeping operations; or building institutions capable 
of maintaining security, law, and order. While we have enjoyed broad 
support from Congress on security assistance in Africa, I ask that you 
fully fund our request for FY16--which includes a $2.4 million increase 
for IMET.
    We look forward to working with you to continue supporting our 
security assistance goals in Africa and improving the effectiveness of 
the programs. Thank you again for your continued support for security 
assistance in Africa.

    Senator Flake. Thank you.
    Ms. Dory.

  STATEMENT OF AMANDA J. DORY, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR AFRICAN AFFAIRS, DEPARTMENT OF DEFENSE, WASHINGTON, 
                               DC

    Ms. Dory. Thank you, Chairman Flake, Ranking Member Markey. 
It is a pleasure to be here today alongside my State Department 
colleagues to speak to the critical importance of security 
assistance for Africa.
    The Department of Defense implements security assistance in 
accordance with the Presidential Policy Directive 16, which is 
the U.S. Strategy Toward Sub-Saharan Africa, as well as the 
Presidential Policy Directive 23 on Security Sector Assistance.
    We focus the majority of our assistance in Africa on 
building African security force capacity and defense 
institutions to support peacekeeping, crisis response, as well 
as combating transnational threats. These threats, if left 
unchecked, could potentially negatively impact the safety and 
economic prosperity of U.S. citizens and international 
partners. Modest, proactive investments in the development of 
professional security forces are an essential component of 
establishing strong, effective, and prosperous partner states 
with shared values and interests.
    The Department of Defense has embraced security cooperation 
in Africa as a practical tool for addressing a range of 
security challenges. Our strategic approach continues to focus 
on working by, with, and through African partners and 
international organizations to address these challenges.
    Over the past 5 years, Congress has substantially increased 
security cooperation appropriations related to Africa. And 
within the Department of Defense, allocations for Africa have 
also increased. Together, this resulted in an increased 
allocation of core title 10 security cooperation funds in 
Africa from approximately $50 million in fiscal year 2010 to 
approximately $380 million in fiscal year 2014. This funding 
increase was principally driven by increased efforts to enhance 
African counterterrorism capacity through train and equip 
authorities. You have also seen increased support for security 
partners during crisis response, for example, in Mali and in 
the Central African Republic through DOD support under 
Presidential drawdown authority.
    But to put these resources in context, DOD-appropriated 
security assistance represents about 30 percent and Department 
of State approximately 70 percent of total security sector 
assistance over this period from fiscal year 2010 to fiscal 
year 2014.
    Additionally, security assistance represents about one-
sixth of all U.S. Government foreign assistance in Africa, with 
the majority of our assistance going to economic development 
and public health.
    In fiscal year 2015, the Department of Defense has also 
participated in the development of three White House security 
cooperation initiatives in Africa. We have already touched 
briefly on the Security Governance Initiative and the African 
Peacekeeping Rapid Response Partnership. Additionally, we are 
working closely with the State Department and the White House 
on the Counterterrorism Partnerships Fund, or CTPF. We fully 
support the broader U.S. Government commitment to develop 
African partners' and regional organizations' ability to 
rapidly and effectively respond to crises through APRRP. And 
DOD is working closely with the State Department and other 
Government agencies on the Security Governance Initiative to 
support development of African security sector establishments. 
SGI, along with the African Military Education Program, and 
other defense institution-building programs, are increasingly 
important as we look to reinforce our capacity-building efforts 
to yield long-term partnerships with capable African 
militaries.
    Also this fiscal year, the Department of Defense is 
implementing the President's Counterterrorism Partnerships 
Fund. DOD intends, pending congressional notification, to spend 
approximately $466 million in fiscal year 2015 in the Sahel, 
Maghreb, Lake Chad Basin, and Horn of Africa on both key U.S. 
enablers and capacity building efforts with partners. The 
Department is seeking an additional request in fiscal year 2016 
funds for both Africa and the Middle East. And as you are 
aware, the State Department also has a fiscal year 2016 CTPF 
request that would focus on strengthening partner nation law 
enforcement and judicial responses. CTPF is an indispensable 
tool for assisting resource-challenged but willing partners 
with sufficient resources and expertise to counter a shared and 
growing terrorist threat.
    In no area is the importance of close and continual DOD 
coordination with the State Department more important than 
counterterrorism. We must ensure that our efforts to build 
partner nation military capacity are balanced with other 
security sector priorities. A strengthened military fully 
proficient and capable of conducting counterterrorism 
operations cannot take the place of African law enforcement, 
border security forces, and criminal justice systems that 
deliver justice in the eyes of their populations. Likewise, it 
cannot substitute for USAID-led activities to generate economic 
opportunities and alternative narratives to extremist 
ideologies. DOD also relies heavily on the State Department 
with respect to long-term sustainment of its counterterrorism 
capacity-building.
    In closing, DOD relies on essential day-to-day support 
provided by U.S. Embassies in Africa and America's unsung 
heroes, the front line Foreign Service officers and Embassy 
teams serving alongside uniformed service members in harm's way 
to keep America safe. Effective security cooperation requires a 
balanced approach with other sectors of the partner security 
enterprise and right sizing of State and USAID funding to 
ensure our efforts are aligned and proportional to achieve 
desired policy goals.
    Thank you very much, and I look forward to the conversation 
and discussion.
    [The prepared statement of Ms. Dory follows:]

                  Prepared Statement of Amanda J. Dory

    Chairman Flake, Ranking Member Markey, and distinguished members of 
the committee, thank you for inviting the Department of Defense to 
testify with our Department of State colleagues on security assistance 
to Africa. Close partnership between the Department of Defense and 
Department of State is essential for successful security cooperation in 
Africa and I am appreciative of the opportunity to provide an overview 
of how the Department of Defense works closely with the Department of 
State to employ security assistance as a tool of statecraft in 
achieving our policy goals in Africa.
    The Department of Defense implements security assistance in 
accordance with the Presidential Policy Directive on Security Sector 
Assistance (SSA), PPD-23 and U.S. Strategy Toward Sub-Saharan Africa, 
PPD-16 in support of its four goals which are to help partner nations 
build sustainable capacity to address common security challenges, 
promote partner support for U.S. interests, promote universal values, 
and strengthen collective security and multinational defense 
arrangements and organizations. DOD focuses the majority of its 
security assistance in Africa on building African security force 
capacity, defense institutions, preparedness to support peacekeeping 
and crisis response, and capacity to combat transnational threats, to 
include: terrorism, illicit trafficking of narcotics, proliferation of 
weapons of mass destruction, regional instability, piracy, and 
communicative diseases. These threats, if left unchecked, could 
potentially negatively impact the safety and economic prosperity of 
U.S. citizens and international partners within the United States and 
abroad. A modest, proactive investment in the development of effective 
security forces that abide by international human rights standards and 
the rule of law can be an essential component in establishing a 
security environment that encourage terrorism, and equally important, 
encourages the development of strong, effective, and prosperous partner 
states with shared values and interests.
    The Department of Defense has embraced security cooperation in 
Africa as a practical tool for addressing emerging challenges posed by 
the security environment. Many of the conflicts in Africa which we hope 
to help address through security cooperation arise from a combination 
of local and international grievances and power struggles which often 
have an outsized impact on fragile countries. DOD realizes that going 
it alone is simply not a feasible, effective, or cost-effective 
solution which is why the Department of Defense continues to focus on 
working by, with, and through African partners and international 
organizations as our primary approach to address security challenges in 
Africa.
    Over the past 5 years, Congress has substantially increased 
security cooperation appropriations related to Africa. Within the 
Department of Defense, allocations have increased as well in response 
to growing security challenges. Together, this resulted in an increased 
allocation of core title 10 security cooperation funds in Africa from 
$53.7 million in FY10 to $379.6 million in FY14. This funding increase 
was principally driven by increased efforts to enhance African 
counterterrorism capacity through East Africa and Yemen 
Counterterrorism (1203), Global Train and Equip (1206 and 2282), and 
Global Security Contingency Fund (1207) authorities. We have also seen 
increased support for security partners during crisis response through 
DOD support under Presidential Drawdown authority. In FY15, the 
Department of Defense, in close coordination with the Department of 
State, has also participated in the development of three White House 
security cooperation initiatives in Africa: the Security Governance 
Initiative (SGI), the African Peacekeeping Rapid Response Partnership 
(APRRP), and the Counterterrorism Partnerships Fund (CTPF).
    For context, DOD appropriated security assistance represents 29 
percent and Department of State 71 percent of total security assistance 
from FY10 to FY14. Further security assistance remains approximately 
one-sixth of all U.S. Government foreign assistance in Africa with the 
majority going to economic development and public health. Within title 
22 programs, DOD believes the Foreign Military Financing (FMF) account 
is a particularly important program, providing flexibility to build and 
sustain our African partners with long-enough expenditure horizons to 
support our shared goals. DOD also finds particular value in the 
International Military Education and Training (IMET) program which is 
essential for building professionalism and establishing bonds and 
common understanding between future U.S. and African senior military 
leadership.
    The Department of Defense fully supports the broader U.S. 
Government commitment to develop African partners and regional 
organizations' ability to rapidly and effectively respond to crises 
through APRRP. The Department of Defense is working closely with the 
Department of State to determine requirements and identify priority 
capabilities that will provide the greatest return on investment for 
improving African crisis response capabilities. DOD through U.S. Africa 
Command will also play a key role in implementing APRRP capacity-
building efforts to include, military equipment, training, and 
technical and advisory assistance. DOD will further continue to partner 
with State to implement broader peace operations capacity-building 
activities through exercises and other authorities such as the Global 
Peace Operations Initiative.
    DOD is also working closely with the State Department and other 
government agencies on the Security Governance Initiative to support 
the development of African security sector establishments. SGI, the 
Africa Military Education Program (AMEP), and other supporting title 10 
defense institution building programs such as the Ministry of Defense 
Advisor Program and Defense Institution Reform Initiative will become 
increasing important as we look to buttress our near-term capacity-
building efforts into long-term partnerships with capable African 
militaries. These efforts help our African partners develop and expand 
the technical proficiency to effectivelyand efficiently governance and 
oversee their own militaries. In the long run, this will lead to more 
professional and effective African militaries and protect U.S. 
taxpayer's investments in training and equipping security forces 
capable of independently managing security threats on the continent.
    Beginning this fiscal year, the Department of Defense is also 
implementing the President's Counterterrorism Partnerships Fund (CTPF) 
to support a broader approach to a sustainable and partnership-focused 
approach to counterterrorism. This effort builds on existing tools and 
authorities such as the Trans-Sahara Counterterrorism Partnership 
(TSCTP) and Partnership for Regional East Africa Counterterrorism 
(PREACT) to provide direct support to partner nations through building 
partner counterterrorism capacity and the provision of increased U.S. 
enabling support for African partners. DOD intends, pending 
congressional notification, to spend approximately $466 million in FY15 
CTPF money in Africa and is seeking an additional $1.269 billion in 
FY16 funds to build partner capacity to counter terrorist threats in 
the Sahel/Maghreb, Lake Chad Basin, and Horn of Africa.As you are 
aware, State Department has a FY16 CTPF request as well that would 
focus on strengthening partner nation law enforcement and judicial 
responses. These funds will focus on enhancing our African partners' 
intelligence, mobility, and logistics capabilities and ensuring their 
ability to operate within international counterterrorism coalitions and 
in accordance with international human rights norms. CTPF is an 
indispensable tool for assisting some of our most resource challenged, 
but willing partners, with sufficient resources and expertise to 
counter a shared and growing terrorism threat.
    In no area is the importance of close and continual Department of 
Defense coordination and cooperation with the Department of State more 
important than counterterrorism. DOD relies on State to ensure that its 
efforts to build partner nation military counterterrorism capacity are 
balanced with other security sector priorities and integrated into 
effective host nation and multilateral strategies. A strengthened 
military fully proficient and capable of conducting counterterrorism 
operations cannot take the place of African police, border security 
forces, and a criminal justice system that delivers justice in the eyes 
of its population. Likewise, it cannot substitute for economic 
opportunities and alternative narratives to the ideologies of hate and 
revenge proffered by our shared adversaries. The Department of Defense 
also relies on the Department of State to help ensure the long-term 
value of its counterterrorism capacity-building capacity efforts. State 
provides critical sustainment funding through Foreign Military 
Financing (FMF) and DOD supports the request to increase Africa FMF in 
FY 2016 in support of this end. However, even with increased funds 
State and DOD agree that the FMF funding levels are currently 
insufficient for sustainment needs and are working together to try to 
address this issue.
    The Department of Defense also relies on essential day-to-day 
support provided by the U.S. Embassies in Africa and America's unsung 
heroes, the front line Foreign Service officers and broader embassy 
teams serving alongside our uniformed servicemembers in harm's way to 
keep Americans safe. Effective security cooperation in the military 
sector requires a balanced approach with other sectors of the security 
enterprise and right sizing of State funding and support to ensure that 
Defense and State efforts are not only aligned, but proportional to 
achieve the desired policy goals. I encourage Congress to consider 
these issues of proportionality, State's large comparative advantage in 
security cooperation in the nonmilitary security sectors, and the 
importance of State foreign assistance funding for capacity building 
and long-term sustainment of U.S. Government security sector capacity-
building efforts in Africa when considering future funding levels for 
State FMF and CTPF.
    I look forward to listening to your insights, answering any 
questions you may have, and providing additional thoughts from a 
defense perspective as part of what I hope will be a continued dialogue 
on how best to employ security cooperation as an effective diplomatic 
tool in Africa. Thank you again for the invitation and interest in 
hearing a defense perspective on this important issue.

    Senator Flake. Thank you all. It looks like votes are 
supposed to start about now. So we will see how they come and 
see how we can move forward. But I will start the questioning 
and thank you for your testimony.
    Ambassador Thomas-Greenfield, you recently traveled to 
Nigeria to witness the installation of the new President. And 
it looks as if we will have a better security arrangement and 
agreement with that country now. Can you talk about that and 
explain where you think we are going?
    Ambassador Thomas-Greenfield. Thank you very much. It 
really was an honor to attend the inauguration of the new 
President of Nigeria.
    And let me just say here that the successful election in 
Nigeria bodes well for us on the continent of Africa. Nigeria 
is the sixth largest democracy in the world. It is the largest 
democracy on the continent of Africa, and I think seeing 
Nigeria work as a democracy will send very positive messages 
across the continent.
    We have been working very closely with the Nigerian 
Government on addressing the threats that they face from Boko 
Haram. It was a complicated relationship during the previous 
administration that did not always work well. But we were 
cooperating with that government and doing our best to assist 
them in addressing the terrorist threat that they were facing. 
Given the complications of the relationship working with the 
Nigerians directly, we also worked with Nigeria's neighbors in 
the Lake Chad Basin providing assistance to the Government of 
Chad, to the Government of Niger, as well as the Government of 
Cameroon bilaterally, and we supported AU efforts to set up the 
multinational task force and worked closely with our French and 
U.K. P-3 European partners.
    We are optimistic that we can reset the relationship with 
the new government. As you may have heard, in the speech that 
President Buhari gave, he indicated that addressing the 
situation in the north with Boko Haram, addressing security is 
his highest priority. We want to work with him, and we have 
expressed that to him. Secretary Kerry had a bilateral meeting 
with him during the inauguration, and we are looking to send a 
team out to Nigeria early in the next few weeks to start 
working with the new government on how we might better 
coordinate our efforts in addressing Boko Haram.
    Senator Flake. Have they made a commitment to increase 
their resources in terms of their own military? It was quite, I 
am sure, embarrassing for them when it seemed neighboring 
countries with a fraction of the resources that Nigeria has 
seemed to be more effective against Boko Haram than they were. 
And what kind of internal commitments is the new President 
making?
    Ambassador Thomas-Greenfield. He has certainly committed 
both publicly and privately that he intends to do everything 
possible to address the situation in terms of resources, as 
well as staff. He has just appointed the new person who will be 
in the multinational task force from Nigeria. He is someone we 
have worked with and we feel that he will be a positive force 
on the multinational task force. I think he has been in office 
for less than a week, and I think he is still looking at his 
resources. But I think it bodes well that President Buhari's 
first trip out of Nigeria was to Chad and Niger to work with 
those two countries, and I understand he plans to go to 
Cameroon as well to see how they can better coordinate.
    Senator Flake. Thank you.
    Mr. Talwar, you mentioned maritime security. I think all of 
you have. The concern has been, obviously, that it was a real 
problem for an extended period of time in the Horn of Africa. 
That has been abated somewhat, but the concern has been that it 
would move to the Gulf of Guinea. What is the trajectory, as 
you see it right now, for lawlessness or piracy in that area? I 
know that is a concern of ours. It was mentioned that we passed 
a resolution on that topic. Where do you see that going? Do we 
have sufficient resources and focus there?
    Mr. Talwar. Thanks, Mr. Chairman. And I do commend you for 
the work on that resolution, pointing to a really important 
problem.
    Sometimes the comparison is made between the Horn of Africa 
and the Gulf of Guinea. In fact, they are very different 
problems. Off the Horn of Africa thankfully--and thanks to our 
efforts and the efforts of the international community--we have 
not had a successful boarding of commercial vessel in over 2 
years now. But the focus has to remain there because those 
folks could come back any time. But it is largely a problem in 
international waters that we face there.
    In the Gulf of Guinea, the problem, as you know, is 
primarily in territorial waters. And what it points to is what 
my colleagues and I talked about this morning and what you 
flagged, and that is the question of governing institutions and 
the ability to tackle this as a criminal enterprise largely. 
And there are efforts that we have underway on that front, but 
that is really where the focus needs to be because, as you 
pointed out in your resolution, this sort of activity is 
undercutting revenues and economic growth and investment 
opportunities and an overall sense of law and order in the 
countries that are affected.
    Senator Flake. Thank you.
    Ms. Dory, much of our military assistance in Africa 
obviously is directed at international organizations and other 
regional groups that already exist. How is that working out in 
your view? Do we have the cooperation that we need? What areas 
do we need to work on in terms of our international partners? 
Because there are very few examples where we are acting alone 
in Africa.
    Ms. Dory. Senator Flake, maybe I would pick up from where 
my colleague left off to answer your question thinking about 
the challenge of transnational threats that have to be 
addressed in a regional fashion for coherence, but our 
partnerships are implemented and executed on a bilateral basis. 
And so the necessity as the U.S. Government of operating at a 
continental scale at times and a regional scale at times and 
then certainly always at the bilateral level.
    Just in the Gulf Guinea context, for example, we are 
tackling both at the regional level with respect to the two 
regional organizations, ECOWAS and the ECAS, to harmonize 
institutional frameworks and codes of conduct with respect to 
the issues of piracy in the gulf. So an institutional work at a 
regional level even while we are working at a bilateral level 
on individual maritime capacity-building efforts whether it is 
maritime domain awareness, whether it is the ability to project 
power to address particular incidents. And there have been a 
number of successes where we can point to partner nations who 
are using vessels that have been provided by the United States 
or making use of maritime domain awareness equipment to 
interdict successfully various pirate incidents and others in 
the Gulf of Guinea. But that type of model is the type of model 
that we see time and again, whether it is at sea or on land.
    Senator Flake. Is there a 3-month course over at State just 
to learn all the acronyms for all these security arrangements? 
That is what I am wondering because I need to take that one. 
[Laughter.]
    But anyway, I will turn to Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    And you know what I would like, Mr. Chairman? You know, I 
chaired telecommunications over in the House for many years, 
and what I did was I actually declared an acronym-free zone in 
our committee----
    [Laughter.]
    Senator Markey [continuing]. Just so that everyone would be 
forced to speak in easily understandable English because it is 
easily understandable. But the acronyms make it inaccessible.
    So I would ask each of our witnesses to try to stay out of 
acronyms and to try to put it in English so that even the least 
well-informed American who is watching this on C-SPAN can 
understand it. And so please be mindful of that.
    Senator Flake. And if the ranking member will excuse me for 
a minute----
    Senator Markey. Absolutely.
    Senator Flake [continuing]. And promises not to stage a 
coup----
    [Laughter.]
    Senator Flake [continuing]. I will go and vote and return. 
Thank you.
    Senator Markey. We are creating the kind of harmony here 
that we are encouraging to exist between State and Defense.
    So let me ask you this, Secretary Dory. I would like to go 
back to Nigeria and Boko Haram. We have had limited results in 
our cooperation with Nigeria in the past, but we might be 
seeing a turn toward a more proactive approach against Boko 
Haram, given Nigeria's recently elected president. The Nigerian 
military has acted, taking the fight to Boko Haram in their 
strongest territories, freeing hundreds of kidnapped Nigerian 
citizens in the process. While this is seen as a helpful 
development, we still need to closely examine the kind of 
partnership we hope to have with those we support, particularly 
when we are discussing military partnerships.
    In a recent Amnesty International report, Nigeria's 
military is alleged to be committing war crimes against their 
own citizens under the veil of combating Boko Haram. Supporting 
partners in an effort to combat violence and human rights 
violations when they themselves are committing similar acts 
against innocents is not a recipe for success by any measure.
    What are DOD short-term and long-term goals in supporting 
the Nigerian Government's efforts against Boko Haram? How do 
the recent reports of the Nigerian military's human rights 
abuses impact or affect these goals in our partnership with 
Nigeria?
    Ms. Dory. Thank you, Senator. We are very aware of the 
report recently released by Amnesty International and the 
allegations that have persisted for some time with respect to 
human rights abuses by elements of the Nigerian military and 
other elements of the security services. I think as Assistant 
Secretary Thomas-Greenfield mentioned, this has been part of 
our dialogue over time both privately and publicly with all 
elements of the Nigerian Government. And it will be fundamental 
to our ability to work together going forward because the 
shared interests and the shared values have to be there at the 
foundation of our relationship with the Nigerians going 
forward.
    So I think in the very near term, we are giving time and 
space for the new President to put in place his leadership team 
to see what changes are made, if any, with respect to the 
Nigerian military leadership. Depending on how that settles 
out, it will give us then opportunities to begin to reengage 
with the new leadership team and to understand what their 
priorities are, if their priorities include, in addition to, of 
course, addressing robustly the issue of Boko Haram within 
their borders and beyond, but whether there is also a 
commitment to addressing these long-standing concerns and our 
ability as the Department of Defense or State Department to 
engage in a security relationship. As you know, sir, the Leahy 
human rights considerations would prevent us from working and 
collaborating in a training relationship or in an equipping 
relationship with military members who have any accusations 
with respect to human rights.
    Senator Markey. Thank you, Secretary.
    Let me go back over to you, Ambassador Thomas-Greenfield. 
What are we doing to improve how the African Union deals with 
sexual abuse and exploitation by its peacekeeping troops? How 
do the training programs we fund for these peacekeepers address 
that issue?
    Ambassador Thomas-Greenfield. Thank you. We have just dealt 
with a case like that with the African Union related to 
Burundian and Ugandan troops in Somalia. And our immediate 
approach is to demarche the African Union and those countries 
that are involved to ensure that they investigate and hold 
accountable anyone who is involved in sexual abuse. 
Peacekeepers are there to protect, and any abuse of that 
authority has to be addressed very quickly or they lose the 
confidence of the people.
    In the recent case, the African Union did carry out a very 
thorough investigation, and we were pleased in the case of 
Uganda that Uganda also carried out an investigation and held 
their troops accountable. We also worked with the Burundi 
Government. They did not respond as we would have wanted them 
to respond, but DOD sent out a team to work with the Burundi 
army in the training elements to ensure that they got the kind 
of training that they needed to address human rights concerns 
and that is built into our training, the idea of sexual 
exploitation, the training that we do with all of the troops 
that we are working with on the continent of Africa. This is a 
very serious concern for us, and it is something that we 
immediately respond to when we hear reports.
    Senator Markey. Well, I think it is just an important issue 
for them to understand that we are dead serious about it.
    Secretary Dory, I am growing more concerned about the 
potential for militarization of U.S. foreign policy in Africa. 
By that, I mean are we obscuring the importance of issues like 
democratic growth and good governance as we continue to tackle 
the real security concerns on the continent.
    In 2015, the administration sought creation of the 
Counterterrorism Partnership Fund. In fiscal year 2015, the 
Counterterrorism Partnership Fund totaled $1.3 billion. And DOD 
plans to spend $460 million of that amount in Africa.
    In the fiscal year 2016 request, the Counterterrorism 
Partnership Fund request for DOD is now $2.1 billion, and $1.27 
billion of that is meant for Africa, East Africa, the Lake Chad 
Basin, and Northwest Africa terrorist hotspots.
    For the State Department in fiscal year 2016, security 
sector funds hover somewhere around the $400 million to $500 
million range for its primary programs.
    If Congress grants DOD's Counterterrorism Partnership Fund 
request and the funds are ultimately obligated as the 
administration proposes, then this one fund will outsize all of 
the State Department-administered security sector funds, and 
that is by a large amount.
    I realize it is not always easy to compare funding levels 
like apples to apples, but from where you sit overseeing DOD's 
policy in Africa, can you understand my concern? Do you see 
this dramatic imbalance between State and DOD as a good thing 
for our approach to Africa?
    Secretary Dory.
    Ms. Dory. Thank you, Senator.
    I share you concern, which is part of the reason in my 
statement where I have drawn attention to the request for the 
State Department CTPF request as well. And there was a fiscal 
year 2015 CTPF request for the State Department too. And the 
concern is that if we focus exclusively on militaries and we 
neglect the other elements referred to in terms of law 
enforcement, judicial systems, civilian engagement, then we 
will, indeed, have an imbalance in terms of our approach.
    Senator Markey. Thank you.
    Just so that I will be able to make this rollcall on the 
Senate floor with some confidence, what I am going to do is 
just declare a brief recess. The chairman will be returning 
momentarily, and then we will just recontinue the hearing. So 
this committee stands in a brief recess.

[Recess.]

    Senator Flake. Thank you. No coup happened while I was 
gone. Okay. I am still in charge here. All right, good. Thank 
you.
    When the bell sounds over there, we are like Pavlov's dogs. 
We just run over and then vote. So thank you for waiting.
    I am not sure what all Senator Markey touched on, but let 
me ask a little bit about--we have long provided security 
assistance on the continent--and this is for you, Ambassador 
Thomas-Greenfield--under the premise that exposure to U.S. best 
practices in our civilian-led military will lead to great 
security in the region. And, Mr. Talwar, you mentioned also the 
value of training programs. And we have certainly seen that in 
the past. Yet, in Mali, Burkina Faso, and possibly Burundi, 
United States-trained actors were involved in, shall we say, 
extrademocratic transitions.
    How can we be confident that U.S. assistance will foster 
stability rather than aid to the problems?
    Ambassador Thomas-Greenfield. Those are examples where it 
did not work and we have lots of examples where it has worked.
    But let me say on those three examples, sir, we actually 
were able to communicate directly with those individuals who 
were involved because we know them, having gone through 
training or having had contacts with them. And we were able, 
particularly in the Burundi case, to say that you have to turn 
over authority to civilians. We have made clear in every case 
where there has been an unlawful attempt to obtain power that 
we do not support that.
    In the case of Burundi recently, I think we have been 
somewhat astonished at the restraint that the military has 
shown, despite the attempted coup attempt, but in dealing with 
the other military that we are working with, that they have 
shown some restraint, and we certainly have seen that because 
Burundian military are participating in peacekeeping 
operations, and they do not want anything to interfere with 
their ability to continue to be part of that because that is in 
jeopardy if they do not act in a way that reflects the values 
that we have tried to share with them through the training.
    But this is a concern and it is a concern that these 
militaries are aware of, and they know that if they carry out 
acts of violence, that they jeopardize any possibility of any 
support from the U.S. Government.
    Senator Flake. Burundi has, in fact, suspended their 
participation in the peacekeeping operations in Somalia? Have 
they not?
    Ambassador Thomas-Greenfield. No, sir, they have not. They 
are still participating in the peacekeeping operations, but we 
have also let them know that as the military continues--that we 
are watching the military very closely. And it is in jeopardy 
if the military in Burundi take any actions that will raise 
some questions about how much they are participating in the 
violence, what kinds of human rights violations they are 
involved in. But they are very much a part of the and an 
essential part of our Somali AMISOM operation.
    Senator Flake. Great.
    You talk about some successes. We have seen some modicum of 
success at least in the eastern Congo. Mr. Talwar, do you want 
to talk about the situation there and where you feel it is 
going?
    Mr. Talwar. Thanks, Mr. Chairman. I actually would defer to 
my colleague, Ambassador Thomas-Greenfield, who can talk more 
specifically about the situation in eastern Congo. I would say 
that we do have some ongoing efforts in that area on the 
security side, but I think I would defer to her on the 
diplomatic piece.
    Ambassador Thomas-Greenfield. It has been a work in 
progress in dealing with the DRC military. We have seen some 
behavioral changes on the positive side. At the same time, we 
still continue to be concerned about their approach, 
particularly in dealing with the civilian population. As you 
know, the statistics have shown that the number of rapes and 
attacks on civilians there have been extraordinary, and we are 
continuing to work with the government and we were pleased that 
they actually carried out an investigation recently, signed an 
MOU that indicated that they would no longer be involved in 
attacks against civilian populations, particularly using rape 
as a tool of war.
    Senator Flake. The Lord's Resistance Army a couple of years 
ago was the talk of the town. There is a lot more focus on it 
now. Can you talk about what the current status is and if we 
can declare success there?
    Ambassador Thomas-Greenfield. We are not ready to declare 
success, but we are very, very proud of the accomplishments we 
have made thus far. They are no longer attacking villages. The 
second in command has been taken to the ICC in The Hague, and 
it is only the top leader who is left. And we will continue our 
efforts working closely with the Ugandan Government and other 
governments in the region until he is captured.
    Amanda, would you like to add something on that?
    Ms. Dory. Thank you. If I could, Senator. As Ambassador 
Thomas-Greenfield was indicating, four of the five top leaders 
are no longer on the battlefield for a variety of reasons. And 
the core fighting force of the LRA has been shrunken 
considerably and has really discarded many of the family 
members and is down to a relatively small core, maybe a tenth 
of its original size. So from that perspective, I think we feel 
very pleased with the effort. It of course relies on the 
regional militaries in the first instance with the U.S. role in 
an advisory and assistance capacity, and as long as the partner 
will is there to persist, we will be there as well.
    Senator Flake. Some in the NGO community have asserted that 
Uganda is playing a less than helpful role in South Sudan. They 
are one of the six APRRP partners. Can you address that? What 
are we doing? Are we putting pressure on them, if need be, to 
play a positive role? One, would you agree with the assertion 
that they have played a complicating role? Put it that way.
    Ambassador Thomas-Greenfield. I would say they are playing 
a complicating role. I think all of the countries in the region 
have interests that are being played out in South Sudan. And, 
yes, we have been in regular contact with the Government of 
Uganda, as well as other governments in the region, to urge 
that they be more proactive in trying to find a solution to 
peace in the region.
    The real problem are the two fighters, the two leaders on 
both sides, getting them to the negotiating table. But it would 
help to get them to the negotiating table if they know that 
they have lost the support of regional partners. And that is a 
challenge that we will continue to push these leaders on 
addressing.
    Senator Flake. Thank you.
    Mr. Talwar or Ms. Dory, we signed a long-term agreement 
with Djibouti. We have a base there or make use of the base 
there. I have a brother that just spent, I think, 4 months 
stationed there. How is that arrangement going? There was a 
``Washington Post'' article a while ago about the challenges in 
terms of safety at that airfield and whatnot. Can you talk 
about that and how important that is for the region?
    Ms. Dory. Senator, I would be glad to. The Camp Lemonnier 
location, our only enduring location on the African Continent, 
is critical, as you know, based on its geographic location and 
the support it provides to multiple departments, agencies, and 
combatant commands.
    Our relationship with the Djiboutians has really been 
strengthened in the course of working together to update the 
implementing agreement that relates to our presence at Camp 
Lemonnier. And I would characterize our relationship at this 
point as very strong and productive. We welcomed a very senior 
ministerial level delegation from Djibouti early in the 
calendar year to Washington for the first time as part of a new 
binational forum that we have established with Djibouti that 
brings Defense, the State Department, and USAID to the table to 
address the range of partnerships that we have with the 
Djiboutians. The military piece is perhaps the most visible, 
but the part that is really the most important to the 
government of Djibouti is the potential for jobs creation in an 
economy that is really struggling and being able to provide 
jobs for a growing population.
    Thank you.
    Senator Flake. Thank you.
    Turning now for a minute to the budget request, much of the 
U.S. assistance is intended to build African capacity, as we 
have talked about, carrying out peacekeeping and stability 
operations. But given the prevalence of instability in many of 
the countries that we deal with--we mentioned some here, 
Nigeria, Burundi, Mali--how confident can we be that these 
countries can absorb U.S. assistance and reliably protect what 
we want protected? We have talked about some of this already, 
but from our perspective here, that is an assurance that we 
have to feel comfortable with. Like you said, with a lot of the 
instability going on, it is sometimes a difficult sell to our 
constituents. Do you want to talk about that, Ambassador?
    Ambassador Thomas-Greenfield. For me and for the Africa 
Bureau, the important element of security that we do not get 
enough funding for is stability and democracy because it is 
stable countries that respect democratic values and rule of law 
where you will see less conflict and less insecurity.
    So I would like to see us put more effort, as we did in the 
case of Nigeria in supporting their election, helping to build 
the capacity of the election commission and their NGO 
monitoring teams to monitor the election so that they could 
deliver a free and fair and transparent election that all of 
the people of Nigeria felt comfortable with. That is the key to 
security all over Africa.
    And so no amount of money we put into security assistance 
that is just building up militaries will have complete success 
until governments are stable and respect the rule of law.
    That said, there are countries we are working to help them 
build their capacity to handle the security assistance that we 
are providing them. They are willing partners in almost all the 
cases that we work with them on because they see the threat 
that terrorism and insecurity--the threat that that is to their 
society and to their people. And they want to work with us. 
They have worked very closely with the AU in terms of standing 
up an AU capacity to provide support for security assistance, 
and we are working closely with the AU in terms of developing 
that capacity as well.
    Senator Flake. Well, thank you.
    How can we assure that--you know, we hear these new 
security initiatives, a few rolled out at the African Leaders 
Summit. How can we be sure that they are just not repackaging 
of old programs? I can tell you we talked about the acronyms 
from us here. We have got several going that we are 
contributing to, and all of a sudden, we roll out a few more. 
Do they take the place of? Are they consistent with? Are they 
in addition to? It is sometimes difficult on this side to 
understand why a new initiative is needed and if it is simply 
draining resources away from others. Why are these new 
initiatives needed, the Rapid Response, for example?
    Ambassador Thomas-Greenfield. Thank you for that question.
    Actually we consulted very closely with our African 
partners as we developed these new initiatives, and we looked 
at areas where we could complement our already existing 
programs. And these two new programs complement those.
    The Security Governance Initiative gives us the opportunity 
to work on security governance, actually building the capacity 
for the justice sector. It is broader than military. It is 
broader than equipment. It is about building the government's 
capacity to govern its own security apparatus. And we think it 
complements our other programs.
    On APRRP, that is being managed by the PM Bureau. African 
countries have always stood up when we have needed peacekeeping 
troops. But we cannot deploy them fast enough. They are not 
trained. They are not equipped, and APRRP helps us in 
responding to needs that are not being addressed through our 
other programs.
    Senator Flake. Let us talk a minute about the Central 
African Republic. It has been a long slog there. Can you give a 
current assessment of where we are?
    Ambassador Thomas-Greenfield. I am guardedly optimistic 
about the Central African Republic. And the ``guardedly'' is in 
bold and highlighted. They had a dialogue that was sponsored by 
the government recently, and it was relatively successful. They 
have agreed to delay the elections because they are not ready 
for the elections, to be very frank. And the elections will 
take place at the end of the year. But I think broadly what we 
heard during the dialogue from the vast majority of people is 
that they want peace, and they are prepared to invest in peace, 
keep the transitional government in place now to hopefully lead 
to peaceful elections and a transition.
    There are still some negative forces out there who are 
trying their best to scuttle any efforts to bring peace to the 
country, and we are working to address that as well with our 
partners from the AU, as well as EU and French and U.K.
    Senator Flake. Well, the committee thanks you for your 
testimony here today and willingness to answer questions. I am 
sorry about the schedule that we have here. But this is very 
illuminating and very helpful to us, and we appreciate your 
testimony and look forward to the second panel. So you are 
dismissed. Thank you.
    Ambassador Thomas-Greenfield. Thank you.
    Ms. Blanchard, please proceed. You have been introduced. 
Thank you for being here and we look forward to your testimony.

  STATEMENT OF LAUREN PLOCH BLANCHARD, SPECIALIST IN AFRICAN 
    AFFAIRS, CONGRESSIONAL RESEARCH SERVICE, WASHINGTON, DC

    Ms. Blanchard. Chairman Flake, thank you for inviting CRS 
to testify. I would ask that my written statement, which has a 
lot more detail on the security assistance programs, trends, 
and funding levels be submitted for the record.
    Today's discussion is very timely, and I really appreciate 
the committee's effort to bring this issue some attention. We 
spent a lot of time on it.
    Driven by growing counterterrorism concerns and other 
security priorities, we are now seeing a major increase in U.S. 
security assistance to Africa. Long considered an important 
foreign policy tool, U.S. officials increasingly view security 
assistance as a strategic instrument to mitigate potential 
national security threats and to reduce the possibility that 
U.S. forces might be required to intervene overseas. From 
northeast Nigeria and Libya to Somalia, state weakness and 
instability have contributed to environments in which we are 
seeing violent extremists able to expand their reach across 
borders and share tactics, training, and weapons with 
likeminded groups in the region.
    Three years ago, there were four African based groups that 
were designated by the State Department as foreign terrorist 
organizations. Today there are 12. At least one, al-Shabaab, 
has attracted Western recruits, including U.S. citizens.
    Fragile states and undergoverned spaces present the 
international community with other potential threats from 
maritime piracy to illicit trafficking. Recent conflicts have 
taken a massive human toll, and they were very costly. In South 
Sudan, the United States has provided over $1 billion so far in 
emergency relief aid in the past year and a half to stem the 
humanitarian crisis caused by that country's return to 
conflict. Conflicts like these threaten to erode or erase the 
development investments that the United States and other donors 
have made, and they place a broader strain on neighboring 
countries. African conflicts dominate the U.N. Security Council 
agenda, and more than 80 percent of the U.N. peacekeepers 
deployed today are serving in operations in Africa.
    Twenty years ago, DOD saw little traditional strategic 
security interests in Africa. Large military aid allocations 
were made in the 1980s to counter Soviet influence, but United 
States military casualties in Somalia in 1993 took a toll on 
American willingness to intervene directly in African 
conflicts. By the 1990s, security assistance was shifting 
toward a focus on conflict prevention and building African 
forces' capacity to keep the peace. But the 1998 Embassy 
bombings in East Africa and the 9/11 attacks, along with 
subsequent terrorist activity in the region, changed U.S. 
perceptions. Security assistance spending in Africa has since 
been on the rise, notably in response to perceived terrorist 
threats.
    Security assistance still comprises a small percentage of 
the overall U.S. foreign aid to Africa, but both have grown 
considerably. In 1985, security assistance comprised about 17 
percent of total aid to Africa, but at the time, the total was 
just under $1 billion, or roughly $2 billion in today's 
dollars. In fiscal year 2014, in comparison, total aid to 
Africa was about $7.8 billion or more, with security assistance 
comprising roughly 10 percent of total aid, but about $800 
million. Of that figure, about $500 million right now or in 
fiscal year 2014 came from the State Department funds and about 
$300 million came under DOD authorities.
    Security assistance figures do not tell the whole story, of 
course. U.S. military engagement on the continent has been 
growing in the past decade, and African militaries benefit from 
a growing range of activities and joint exercises with U.S. 
forces that are very difficult to quantify in dollar terms.
    A large portion of security assistance today supports 
efforts to counter violent extremist groups on the continent. 
The largest share supports African forces fighting al-Shabaab 
in Somalia. U.S. support for that effort has totaled more than 
$1.4 billion in the past decade, primarily through the State 
Department's peacekeeping operations, or PKO, account but 
increasingly supplemented by DOD using legal authorities that 
Congress has given DOD to build the capacity of 
counterterrorism partners around the world and particularly in 
East Africa.
    Without donor support, the security gains against al-
Shabaab in the past 5 years would likely not have been 
possible. But the mission is not over. Al-Shabaab continues to 
pose a threat increasingly in neighboring Kenya and other parts 
of East Africa, and Somalia is far from stable. DOD 
counterterrorism aid to East African countries has averaged 
between $40 million and $60 million annually in the past 5 
years. Planned and proposed assistance to Nigeria and its 
neighbors to counter Boko Haram appears set to represent a 
sizeable new DOD infusion of military aid to that region, and 
DOD and the State Department both continue to allocate 
significant counterterrorism resources to the Sahel.
    The new Counterterrorism Partnership Fund, or CTPF, could 
represent a doubling of the U.S. security assistance spending 
in Africa relative to fiscal year 2014 if the funds requested 
are appropriated and obligated as proposed. If Congress concurs 
with the administration's assessment of the threats in Africa, 
questions for oversight center on whether the U.S. response is 
appropriately calibrated to meet them. In a tight budget 
environment, questions on the return on investment also arise.
    For answers, Congress may look at how region-specific 
assistance information is reported by the executive branch. In 
the 1980s, for example, State and DOD principals routinely 
testified side by side, as they did today, and provided 
regional specific assistance requests and reporting information 
broken down by security assistance and nonsecurity assistance. 
Such reporting does not occur today, leaving appropriators, 
authorizers, and executive branch implementers without a clear 
and common operating picture of current programs, priorities, 
and proposals.
    Security assistance programs in Africa to date have had 
mixed results. There are some clear successes, but there are 
also indications of challenges related to absorption, 
sustainment, and accountability. The State Department's PKO 
budget is being used as one of the primary vehicles for 
counterterrorism assistance in Africa and for important 
contingencies beyond its origins as a peacekeeping support 
mechanism. Congress originally drafted PKO with broad 
authorities for crisis response but may wish to reexamine its 
current uses and scope given these trends. More broadly, it is 
extremely challenging to compile a comprehensive picture of how 
much security aid is being provided to each African country, 
given the complex patchwork of legal authorities and programs 
under which the State Department and DOD currently operate. 
This poses a potential challenge to oversight efforts regarding 
appropriations and overarching policy issues.
    I want to raise a couple of other potential considerations 
for Congress today.
    In addressing extremist threats, to what extent should the 
U.S. focus on improving partners' ability to meet near-term 
counterterrorism objectives versus longer term efforts to 
counter radicalization through various development programs?
    Does the current approach strike the right balance between 
military aid and support to law enforcement and justice sector, 
or between tactical training or long-term institutional 
development from ministries of defense and ministers of the 
interior?
    Is U.S. foreign aid to support improved governance and 
local service delivery keeping pace with security sector 
enhancements? While military aid can provide windows of 
opportunity and facilitate operations that shrink terrorist 
space, if the host government is unable to come in and provide 
assistance and services to the population and improve their 
conditions or they are unwilling or unable to hold territory, 
what have we invested in?
    And finally, what happens to U.S. security sector 
investments when partner governments' objectives diverge from 
those of the United States?
    Many African countries face governance challenges that 
present potential risks. You have discussed of them today. I 
would point out that some security cooperation relationships 
may also complicate the United States ability to press other 
foreign policy objectives, including the promotion of human 
rights. Notably, the administration has continued to partner 
closely with the Ugandan military while stridently criticizing 
its record on LGBT rights.
    And finally, there are questions about partner nations' 
capacity to absorb and willingness to sustain and secure 
security assistance. You have raised a question about this. In 
Africa, these challenges are particularly pronounced. Donor-
funded security assistance rivals or outweighs the defense 
budgets of some of our key partners. And questions arise about 
partners' capacity to secure equipment transfers, which may 
present additional risks, as we saw in Mali where soldiers who 
had defected to insurgent or terrorist groups in 2012 
reportedly took equipment provided by the United States with 
them. Recent developments in Iraq and Yemen highlight the 
inherent dangers in defense transfers to fragile states.
    I will stop here and thank you for your attention. I look 
forward to your questions.
    [The prepared statement of Ms. Blanchard follows:]

               Prepared Statement Lauren Ploch Blanchard

    Chairman Flake, Ranking Member Markey, and distinguished members of 
the subcommittee, Thank you for inviting the Congressional Research 
Service to testify today. I will begin with a summary of some of the 
key trends and questions for U.S. policy and congressional oversight of 
security assistance in Africa. My prepared statement below also 
includes a more detailed discussion of current U.S. security assistance 
programs on the continent, with information on funding levels, where 
available, and the broad policy objectives behind them.\1\
    Today's discussion is timely. Driven by growing terrorism concerns 
and other security priorities, we are now seeing a major increase in 
U.S. security assistance to sub-Saharan Africa. While security 
assistance has long been considered an important foreign policy tool, 
both to build relationships and to address foreign policy priorities, 
U.S. officials have also increasingly viewed such assistance as a 
strategic instrument for mitigating potential national security threats 
and reducing the possibility that U.S. forces might be required to 
intervene overseas.\2\ From northeastern Nigeria and Libya to Somalia, 
state weakness and instability have contributed to environments in 
parts of Africa in which violent Islamist extremist groups have been 
able to expand their reach across borders and share tactics, training, 
and weapons with other like-minded groups. Three years ago, there were 
four Africa-based groups designated by the State Department as Foreign 
Terrorist Organizations. Today, there are 12. At least one, al-Shabaab 
in Somalia, has attracted Western recruits, including U.S. citizens.
    Fragile states and undergoverned spaces present the international 
community with other potential threats, such as maritime piracy and 
illicit trafficking. Recent conflicts on the continent have taken a 
massive human toll, and they have been costly. In South Sudan, for 
example, the United States has provided more than $1 billion in 
emergency relief aid in the past year and a half to stem a humanitarian 
crisis caused by that country's return to conflict. Conflicts like 
South Sudan's threaten to erode or erase the development investments 
the United States and other donors have made, and they place a broader 
strain on neighboring countries. As an indication of international 
concern with such conflicts, which dominate the U.N. Security Council's 
agenda, more than 80 percent of the U.N. peacekeepers deployed around 
the world today are serving in operations in Africa.
    Twenty years ago, the U.S. Department of Defense saw few 
traditional strategic security interests in Africa.\3\ After large U.S. 
military aid allocations were made in the 1980s to counter Soviet 
influence (including via reportedly large arms transfers), U.S. 
military casualties in Somalia in 1993 took a toll on American 
willingness to intervene directly in African conflicts. By the mid-
1990s, U.S. security assistance allocations were shifting toward a 
focus on conflict prevention and on building the capacity of African 
forces to keep the peace. The 1998 U.S. Embassy bombings in East Africa 
and the 9/11 attacks, along with subsequent terrorist activity on the 
continent, changed U.S. perceptions.
    U.S. security assistance spending on the continent has since been 
on the rise, notably to respond to perceived threats from transnational 
violent Islamist extremist groups. U.S. security assistance still 
comprises a small percentage of overall U.S. foreign aid to Africa, but 
both have grown considerably. Total U.S. aid to Africa in FY 1985, for 
example, was just under $1 billion, or roughly $2 billion in today's 
dollars. Total U.S. aid provided by the State Department, USAID, and 
DOD for sub-Saharan Africa in FY 2014 was at least $7.8 billion, not 
including certain types of humanitarian aid or Millennium Challenge 
Corporation (MCC) funding. Security assistance in FY 1985 for Africa 
was $168 million, or about 17 percent of all U.S. aid for Africa at 
that time, according to testimony by State and Defense Department 
officials.\4\ In FY 2014, security assistance, by CRS calculations, may 
have been roughly $800 million, of which almost $500 million was 
provided through State Department funds and almost $300 million under 
DOD authorities, representing approximately 10 percent of the aid total 
for Africa.
    Security assistance figures do not tell the whole story, though--
U.S. military engagement on the continent has been growing over the 
past decade, and African militaries are benefiting from a growing range 
of activities and joint exercises with U.S. forces that are difficult 
to quantify in dollar terms.
    A large proportion of U.S. security assistance today supports 
efforts to counter violent extremist groups on the continent, 
representing a broadening of U.S. security interests beyond the 1990s-
era focus on peacekeeping capacity-building. The largest share supports 
the African forces fighting al-Shabaab in Somalia. That effort, for 
which U.S. funding has totaled more than $1.4 billion in the past 
decade, has been primarily funded through the State Department's 
Peacekeeping Operations (PKO) account, but PKO funds have been 
increasingly supplemented by DOD, using legal authorities granted by 
Congress to build the capacity of counterterrorism partners around the 
world and particularly in East Africa.\5\ Without U.S. and other donor 
support, the security gains against al-Shabaab in the past 5 years 
would likely not have been possible.\6\ But the mission is not over--
al-Shabaab continues to pose a threat, increasingly in neighboring 
Kenya and other parts of East Africa, and Somalia is far from stable. 
Additional funds have been provided to build the counterterrorism 
capacity of Somalia's neighbors, namely Kenya, Djibouti, and to a 
lesser extent, Ethiopia. DOD counterterrorism assistance to East 
African countries, under the so-called ``Section 1206'' (10 U.S.C. 
2282) and related regional ``train-and-equip'' authorities, has 
averaged between $40-$60 million annually in the past 5 years (some but 
not all of which has supported AMISOM deployments by these countries). 
Planned and proposed assistance to Nigeria and its neighbors to counter 
Boko Haram appear set to represent a sizeable new DOD infusion of 
military aid to that subregion, and DOD and the State Department both 
continue to allocate significant counterterrorism resources in the 
Sahel region of West Africa.
    President Obama's new Counterterrorism Partnerships Fund (CTPF), 
proposed by the administration and authorized and funded by Congress on 
a limited basis in 2014, could represent a doubling of the United 
States security assistance spending in Africa relative to FY 2014 
totals, if the funds requested in FY 2016 are appropriated and 
obligated as the administration has proposed. If Congress concurs with 
the administration's assessment of the threats and security challenges 
on the continent, questions for congressional oversight center on 
whether the U.S. response is appropriately calibrated to meet them. In 
a tight budget environment, questions about the return on investment 
also arise. In order to make such assessments and answer such 
questions, Congress may examine the ways in which region-specific 
assistance information is reported by the executive branch. In the 
1980s, for example, State and Defense Department principals routinely 
testified side by side and provided region specific assistance request 
and reporting information broken down by security and nonsecurity 
assistance. Such reporting does not occur today for a variety of 
reasons. This leaves appropriators, authorizers, and executive branch 
implementers without a clear and common operating picture on current 
programs, priorities, and proposals.
    Security assistance programs in Africa to date have produced mixed 
results. There are some clear successes, but there are also indications 
of challenges related to absorption, sustainment, and accountability. 
The State Department's PKO budget is also being used as one of the 
primary vehicles for counterterrorism assistance in Africa, and for 
important contingencies beyond its origins as a peacekeeping support 
mechanism. Congress originally drafted PKO with broad authorities, but 
Congress may wish to examine its current uses and scope given these 
trends. More broadly, it is extremely challenging to compile a 
comprehensive picture of how much security assistance is being provided 
to each African country, given the complex patchwork of legal 
authorities and programs under which the State Department and DOD are 
currently operating. This poses a potential challenge to congressional 
oversight efforts regarding both appropriations and overarching policy 
issues.
    Potential additional considerations for Congress include the 
following: In addressing violent Islamist extremist threats, to what 
extent should the United States focus on improving partners' ability to 
meet near-term counterterrorism objectives versus longer term efforts 
to counter radicalization? Does the current approach strike the right 
balance between military aid and law enforcement and justice sector 
investments? Between tactical training and long-term institutional 
development? Is U.S. foreign assistance to support improved governance 
and local service delivery keeping pace with security sector 
enhancements? While military aid may be able to facilitate operations 
that shrink terrorist safe havens and create a window of opportunity to 
improve stability, are such efforts sustainable if host governments are 
unable or unwilling to hold territory and improve conditions for their 
populations? And finally, what happens to U.S. security sector 
``investments'' when partner governments' objectives diverge from those 
of the United States?
    Many African countries face governance challenges that present 
potential risks for a partnership approach. For example, the political 
and security crisis in Burundi, which has been a major troop 
contributor in Somalia, presents U.S. policymakers with a dilemma, as 
there appear to be few options for replacing the more than 5,000 
Burundian troops currently deployed in and around Mogadishu, who rely 
heavily on U.S., U.N., and European assistance. Uganda and Chad, both 
viewed as capable counterterrorism partners, are led by two of Africa's 
longest serving Presidents and have governance challenges of their own. 
Some U.S. security cooperation relationships may complicate the United 
States ability to press other foreign policy priorities, including the 
promotion of human rights. Notably, the administration has continued to 
partner closely with the Ugandan military while stridently criticizing 
its record on gay rights.
    Finally, any broad examination of U.S. security assistance raises 
questions about partner nations' capacity to absorb and willingness to 
sustain and secure this assistance. In sub-Saharan Africa, these 
challenges are particularly pronounced. Donor-funded security 
assistance rivals or outweighs the defense budgets of several key 
African security partners (notably Burundi, Djibouti, Mauritania, and 
Niger, which all reportedly have defense budgets under $50 million 
annually).\7\ Further, questions arise about partner countries' 
capacity to secure equipment transfers, which may present additional 
risks, as exhibited for example in Mali, where news reports suggest 
that soldiers who defected to insurgent and/or terrorist groups in 2012 
took U.S.-origin equipment with them. Indeed, recent developments in 
Iraq and Yemen highlight the inherent dangers in defense transfers to 
fragile states.
                overview: security assistance in africa
    Security assistance has long been viewed as an important foreign 
policy tool, and building partnership capacity and supporting stability 
operations have become increasingly important components of U.S. 
security strategy since September 11, 2001. The 2012 Defense Strategic 
Guidance states that ``across the globe we will seek to be the security 
partner of choice, pursue new partnerships with a growing number of 
nations--including those in Africa and Latin America--whose interests 
and viewpoints are merging into a common vision of freedom, stability, 
and prosperity.'' Recent U.S. official documents and statements have 
described a shifting, and increasingly volatile, global security 
landscape, with parts of the world experiencing unrest that is 
contributing to ``a fertile environment for violent extremism and 
sectarian conflict, especially in fragile states, stretching from the 
Sahel to South Asia.'' \8\ The Obama administration's 2015 National 
Security Strategy states that ``we embrace our responsibilities for 
underwriting international security because it serves our interest, 
upholds our commitments to allies and partners, and addresses threats 
that are truly global.''
    Sub-Saharan Africa is an area of growing focus for U.S. national 
security policy. In 2007, President George W. Bush established U.S. 
Africa Command (AFRICOM), the U.S. military's first geographic command 
entirely focused on engagement in Africa.\9\ In 2012, President Obama 
issued the first U.S. Strategy toward Sub-Saharan Africa, identifying 
the advancement of peace and security on the continent among four main 
objectives.\10\ The 2015 National Security Strategy declares that 
``ongoing conflicts in Sudan, South Sudan, the Democratic Republic of 
the Congo, and the Central African Republic, as well as violent 
extremists fighting governments in Somalia, Nigeria, and across the 
Sahel all pose threats to innocent civilians, regional stability, and 
our national security.'' The proliferation of violent Islamist 
extremist groups in North and sub-Saharan Africa is of major concern to 
U.S. officials: 12 groups on the continent are currently designated by 
the State Department as Foreign Terrorist Organizations, of which 8 
have been listed since 2013. Despite notable economic progress in some 
countries and a popular narrative in recent years of ``Africa rising,'' 
instability in parts of the continent continues to cause large-scale 
human suffering and displacement, and remains a major challenge to 
development.
    Out of more than 106,000 United Nations (U.N.) peacekeepers 
currently deployed around the world, more than 80 percent are serving 
in operations in Africa.\11\ One of the world's largest multilateral 
stability operations today is not a U.N. mission--it is the African 
Union (AU) Mission in Somalia (AMISOM), comprised of more than 22,000 
African troops, most of them U.S.-trained and equipped. Many African 
countries are prominent troop contributors to other peace operations. 
Half of the U.N.'s 10-largest troop contributors are African countries, 
and Ethiopia has become the world's largest troop contributor to such 
operations between its personnel in U.N. missions and AMISOM.
    The proliferation of stability operations on the continent (12, 
including the U.N. operations, AMISOM, the nascent multinational task 
force to counter the Nigerian violent extremist group Boko Haram, and 
the AU regional task force to counter the Lord's Resistance Army, or 
LRA) highlights the extent of ongoing conflict and state fragility in 
Africa. However, the increasing contributions of African forces to 
those missions also emphasize the growing capacity, and will, of many 
African countries to respond to these challenges.\12\ Notable is the 
willingness of several African troop contributors (some in pursuit of 
their own perceived interests) to take on stabilization mandates that 
go far beyond traditional peacekeeping, deploying in an offensive 
capacity to countries with ongoing hostilities, like Somalia, where 
there is no peace to keep. Amid ongoing debates about the extent to 
which peacekeeping operations should become engaged in 
counterinsurgency and counterterrorism activities, the African Union 
has, to date, authorized three missions--in Somalia, Mali, and Boko 
Haram-affected areas--explicitly to counter violent Islamist extremist 
threats.\13\ With extremely limited AU financial resources, such 
deployments have required significant voluntary external assistance to 
troop-contributing countries, much of which has come from the United 
States and European donors.
    In its FY 2016 Foreign Operations budget request, the State 
Department describes the promotion of peace and security as ``one of 
the United States highest priorities'' in sub-Saharan Africa, citing 
state fragility, conflict, and transnational security issues. The 
request includes almost $470 million in base budget funding 
specifically for Africa to support security sector reforms and 
capacity-building; stabilization operations; counterterrorism and 
counternarcotics initiatives; maritime safety and security programs; 
and other conflict prevention and mitigation efforts. Significant 
additional funding is being sought for Africa in the Overseas 
Contingency Operations (OCO) request for the Administration's 
Counterterrorism Partnership Fund (CTPF).
    DOD's security cooperation funding for Africa also appears set to 
expand substantially under its FY 2016 request, primarily through its 
global request of more than $2.1 billion in CTPF funding, to build on 
funds appropriated in FY 2015. According to DOD, the CTPF request 
reflects ``the vital role that our allies and partners play in 
countering terrorism that could threaten U.S. citizens.'' \14\ In 
testimony on the FY 2016 DOD budget request, AFRICOM Commander Gen. 
David Rodriguez described the command's efforts to work with African 
partners and build their capacity as ``vital to advancing our national 
interests of security, prosperity, international order, and the 
promotion of universal values.'' He also argued that ``Africa's growing 
importance to allies and emerging powers presents opportunities to 
reinforce U.S. global security objectives through our engagement on the 
continent.'' \15\
    The State Department and DOD's FY 2016 requests for security 
assistance in Africa are discussed below, following a summary of the 
various authorities and programs under which that support is provided.
      u.s. security assistance accounts, authorities, and programs
    The U.S. Government provides assistance to foreign security forces 
through both bilateral and multilateral initiatives. Congress has 
authorized many of these efforts under the Foreign Assistance Act (FAA) 
of 1961, as amended, and the Arms Export Control Act (AECA) of 1976, as 
amended. Pursuant to these statutes, the State Department takes a 
prominent role in determining U.S. security assistance policy, its role 
as a foreign policy tool, and its possible impact on broader U.S. 
foreign policy. Presidential Policy Directive (PPD) 23, issued by 
President Obama in 2013, outlines policy guidelines for planning and 
implementing security assistance and strengthening coordination among 
agencies. It reaffirms the State Department's lead in policy, 
supervision, and general management of security assistance. The State 
Department administers the programs authorized under the FAA and the 
AECA, although DOD implements several of them. In recent years, 
however, Congress has also supported an increasing role for the Defense 
Department in shaping U.S. security assistance, often with the 
concurrence of the Secretary of State, through the authorization and 
appropriation of funds to conduct certain security cooperation 
activities, primarily for, but not limited to, counterterrorism 
purposes. The majority of U.S. security assistance in Africa is 
military aid; assistance to police and other law enforcement agencies 
is comparatively small. These programs and authorities are discussed 
below.
U.S. Assistance to African Militaries
            State Department Authorities
    The most widely known of the State Department's military assistance 
programs are the International Military Education and Training program 
(IMET), Foreign Military Sales (FMS), and Foreign Military Financing 
(FMF). These programs are implemented by DOD's Defense Security 
Cooperation Agency (DSCA), and are managed at the U.S. Embassy in the 
recipient country by AFRICOM's Offices of Security Cooperation (OSCs) 
or Defense Attache Offices (DAOs).\16\ IMET provides training at U.S. 
military schools and other training assistance for foreign military 
personnel on a grant basis, and is primarily designed to build 
bilateral relationships and introduce participants to elements of U.S. 
democracy, such as the American judicial system, legislative oversight, 
free speech, equality, and respect for human rights. A subset of IMET 
training, Expanded IMET (E-IMET), provides courses on defense 
management, civil-military relations, law enforcement cooperation, and 
military justice for both military and civilian personnel. Other 
programs for which the State Department provides policy guidance are 
Foreign Military Sales (FMS), which allows countries to purchase U.S. 
defense articles, services, and training, and the Foreign Military 
Financing (FMF) program, which allows foreign militaries to acquire 
such items through grants.
    Globally, the FMF program is the largest grant-based U.S. security 
assistance program, having risen from just over $3 billion in the late 
1990s to more than $5 billion today. Congress appropriates the bulk of 
FMF for Israel, Egypt, and Jordan, in support of Middle East peace 
treaties and other U.S. policy objectives. Sub-Saharan African 
countries are minor recipients of FMF (see Figure 1), totaling an 
average of under $18 million annually over the past 15 years. For FY 
2016, the State Department has requested $19 million in total FMF for 
sub-Saharan Africa, with just under $7 million in bilateral requests 
spread across nine countries, and another $12 million requested in 
regional funds from which other African countries may benefit. Africa's 
share of global IMET funding is proportionally larger, averaging $12 
million out of roughly $100 million globally in the past 15 years. IMET 
funding is spread across a larger number of countries, with most 
African countries receiving at least $100,000 in IMET assistance per 
year.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The bulk of U.S. military assistance to African partners, however, 
comes through an often-misunderstood foreign assistance account known 
as Peacekeeping Operations (PKO). Not to be confused with the 
Contributions to International Peacekeeping Operations (CIPA) account, 
which funds assessed contributions to U.N. operations and tribunals, 
PKO is often understood to finance voluntary assistance to peace 
operations, including training, equipment, and deployment support for 
troop contributors.\17\ But the legal authority for the account is 
broader, allowing for support to a range of stabilization and crisis 
response initiatives: ``The President is authorized to furnish 
assistance to friendly countries and international organizations on 
such terms and conditions as he may determine, for peacekeeping 
operations and other programs carried out in furtherance of the 
national security interests of the United States.'' \18\ Unlike FMF and 
IMET, which are implemented by the U.S. military with State Department 
guidance, PKO programs in Africa are often implemented by contractors 
overseen by the State Department, although U.S. military personnel 
sometimes participate in certain programs.
    PKO appropriations have grown substantially in the past 15 years, 
from $150 million in FY 2000 to nearly $500 million today (see Figure 2 
for the FY 2016 PKO request). Unlike other security assistance 
accounts, PKO funding has gone primarily to sub-Saharan African 
countries in the past decade, with funding levels for Africa ranging 
from $200 to $400 million annually. PKO funds have been the primary 
vehicle for U.S. support to AMISOM and other regional stability 
operations, including the original AU mission in Darfur in the mid-
2000s, the early years of the Ugandan-led counter-LRA mission in 
Central Africa (beginning in late 2008), and the initial AU deployments 
into Mali and the Central African Republic (CAR) in 2013 and 2014. PKO 
is also used to build international peacekeeping capacity through the 
Global Peace Operations Initiative (GPOI), which has largely focused on 
training, equipping, and supporting African peacekeepers.\19\ According 
to State Department officials, roughly 60 percent of GPOI funding goes 
to African recipients, depending on requirements and available 
resources in a given year.
    Beyond support for peacekeeping, PKO has also funded several major 
security sector reform initiatives in countries transitioning from 
conflict, including Liberia, the Democratic Republic of Congo (DRC), 
South Sudan, and Somalia. Prior to the outbreak of South Sudan's 
internal conflict in December 2013, the United States had invested 
almost $330 million in PKO funds since 2005 to support the 
transformation of the Sudan People's Liberation Army (SPLA), the former 
rebel movement that with South Sudan's independence became the new 
country's national armed forces. In Liberia, more than $200 million in 
PKO funds, along with some FMF and IMET, have been obligated in the 
past decade to support the standup of that country's new military after 
years of civil war. Military reform efforts in the DRC totaling more 
than $120 million in PKO in the past 10 years are ongoing, and in 
Somalia, the United States has, to date, invested more than $220 
million in PKO to help the war-torn country's new army build its 
capacity to fight al-Shabaab alongside AMISOM and eventually assume 
responsibility for the country's security.
    The PKO account is also the primary State Department vehicle for 
counterterrorism assistance for African militaries through two regional 
programs, the Trans-Sahara Counterterrorism Partnership (TSCTP) and the 
Partnership for East Africa Counterterrorism (PREACT).\20\ These 
receive roughly $20 and $10 million in PKO funding per year, 
respectively. Unlike many PKO-funded programs in Africa, which are 
implemented by contractors, these initiatives are primarily implemented 
by AFRICOM. TSCTP, the older and more established of the programs, 
began in FY 2005; it is an interagency initiative funded through 
various accounts to counter extremism in the Sahel and the Maghreb.\21\ 
PKO-funded counterterrorism assistance in most TSCTP and PREACT partner 
countries is complemented by DOD-funded assistance, as discussed below. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The State Department also uses the PKO account to fund several 
other smaller regional security programs, including the Africa Maritime 
Security Initiative (AMSI) and the Africa Conflict Stabilization and 
Border Security (ACSBS) program. The latter was the main vehicle for 
supporting the counter-LRA mission until FY 2012, when Congress 
authorized DOD to begin funding it. More recently, ACSBS has served as 
a vehicle to fund security sector reform efforts in Guinea and Cote 
d'Ivoire, and to train some of the AU troops that deployed to Mali and 
the CAR. Another regional PKO initiative is the Africa Military 
Education Program (AMEP), which aims to build military 
professionalization through instructor and curriculum development at 
African countries' military education institutions. Since 2014, the 
State Department has used the PKO account to fund training and 
equipment for African military and nonlaw enforcement security forces 
to counter wildlife poaching.\22\ Funding for this effort draws from 
prior fiscal year PKO funds dating back at least to FY 2010, 
highlighting the flexibility of the PKO account--funds appropriated 
under PKO, unlike many other accounts, are authorized to remain 
available until expended.
            DOD Authorities
    Ten years ago, DOD, identifying instability in foreign countries as 
a threat to U.S. interests, issued DOD Directive 3000.05, charging the 
U.S. military with two broad missions--building a ``sustainable peace'' 
and advancing U.S. interests--and defining stability operations \23\ 
for the first time as a core U.S. military mission with priority 
comparable to combat operations. The 2006 Quadrennial Defense Review 
subsequently articulated a growing emphasis on building partner 
capabilities to achieve common national security objectives, and 
expressed the need for new authorities and resources to do so. While 
serving as Secretary of Defense (2006-2011), Robert Gates made the case 
for an ``indirect approach'' to the war on terror, in which the United 
States would not rely on another large-scale deployment of U.S. forces, 
but instead work, where possible, ``with and through'' allies and 
partners to counter terrorism.\24\
    Congress has authorized new DOD authorities for security 
cooperation almost every year since FY 2005, and the amount of DOD-
funded security assistance programming has risen dramatically, 
including in Africa. The most prominent of these authorities has been 
the Global Train and Equip program, popularly known as ``Section 1206'' 
(of the FY 2006 National Defense Authorization Act or NDAA, P.L. 109-
163, under which it was first authorized), which was codified in the FY 
2015 NDAA (P.L.113-291) as 10 U.S.C. 2282.\25\ Other authorities have 
followed, including a 3-year Section-1206-like authority specifically 
targeting East Africa and Yemen, which recently expired, and another 
specifically focused on funding the counter-LRA effort.\26\ Section 
1206 and related funding to build sub-Saharan African countries' 
counterterrorism capabilities has increased steadily in recent years, 
totaling almost $800 million in notified funding since the authority's 
inception 10 years ago.\27\ Two East African countries, Kenya and 
Uganda, have been the largest recipients of this assistance in Africa, 
totaling more than $100 million each; with DOD assistance to counter 
the LRA factored in, Uganda is the largest cumulative recipient of DOD 
security assistance. Mauritania, Niger, Burundi, and Djibouti have also 
been major African recipients (see Figures 3 and 4).
    Congress has also authorized DOD to support an initiative jointly 
administered by the Departments of State and Defense known as the 
Global Security Contingency Fund (GSCF).\28\ Designed as a pilot 
project to pool the Departments' respective funds and expertise to 
provide security sector assistance to partner countries, the authority 
requires State to contribute at least 20 percent and DOD not more than 
80 percent of the funding for a given project.\29\ The first GSCF 
project proposed for Africa, a $10 million counterterrorism and border 
security project in Nigeria originally notified to Congress in FY 2012, 
was put on hold and later rescoped and renotified in July 2014, with an 
additional $30 million in DOD funds, to also include Cameroon, Chad, 
and Niger, with a focus on building their capacity to counter Boko 
Haram.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Older DOD security cooperation authorities include Section 1004 of 
the FY 1998 NDAA and Section 1033 of the FY 1991 NDAA, which authorize 
DOD to provide counternarcotics assistance to foreign partners 
(including civilian security forces such as police), and the Combating 
Terrorism Fellowship Program (CTFP; not to be confused with the newer, 
and larger, CTPF initiative).\30\ Funding for African countries under 
these counternarcotics authorities has varied from year to year, 
ranging from $12 million to $38 million annually in the past 5 years, 
spread across more than 20 countries. Congress has also authorized DOD 
to support foreign forces that assist counterterrorism operations by 
U.S. Special Operations Forces under Section 1208 of the FY 2005 NDAA, 
as amended (information on this assistance is classified). African 
countries have also benefited from assistance through smaller DOD-
funded programs to build more effective and accountable defense 
institutions, such as the Ministry of Defense Advisors (MoDA) program 
and the Defense Institutional Reform Initiative (DIRI), each funded at 
between $10 million and $12 million globally.\31\
    In addition to these programs, AFRICOM conducts a range of other 
engagements with African partners, many of which are also intended, at 
least in part, to contribute to building their capacity to address 
shared security objectives.\32\ In the Sahel, in addition to assistance 
received through ``Section 1206'' and TSCTP, partner forces may also 
benefit from engagements with U.S. military personnel deployed in 
support of Operation Juniper Shield/Operation Enduring Freedom-Trans-
Sahara (OEF-TS). In Central Africa, AFRICOM has supported the 
deployment of U.S. military advisors and military aircraft to 
facilitate Ugandan-led regional military operations against the Lord's 
Resistance Army, on top of the authorized DOD-funded logistics support 
and equipment referenced above.\33\ In Liberia, AFRICOM has provided 
mentors and advisors to support the development of the Liberian Armed 
Forces since 2010 through Operation Onward Liberty. In Somalia, AFRICOM 
has deployed U.S. military advisors to advise African troops fighting 
al-Shabaab. And in May 2014, AFRICOM deployed a small advisory team to 
Nigeria to offer assistance in efforts to support the rescue of more 
than 200 schoolgirls kidnapped by Boko Haram. That effort was 
reportedly stymied by limited cooperation on the part of Nigerian 
security officials and other challenges, but Nigeria's new President, 
Muhammadu Buhari, has expressed support for U.S. assistance to address 
the Boko Haram threat. Obama administration officials have suggested a 
new offer of advisory support may be imminent.\34\ In the meantime, 
U.S. military advisors are assisting the nascent Multinational Joint 
Task Force (MNJTF), the Chadian-led regional effort to counter Boko 
Haram.
    In addition to training and exchange programs and exercises, some 
African countries benefit from DOD transfers of excess defense articles 
(EDA) and drawdowns of in-stock defense articles. In Africa, EDA is 
often provided as a grant, with the recipient nation paying for the 
articles' transport and refurbishment, except in certain cases where 
the State Department has provided funding for refurbishment. One recent 
example of an EDA transfer in Africa is the provision of a C-130 
transport aircraft to Ethiopia. Given the administration's intent that 
the aircraft be used for the primary purpose of supporting regional 
peacekeeping operations, the State Department recently notified $15 
million in PKO funding, through its new African Peacekeeping Rapid 
Response Partnership (APRRP), discussed below, to repair and refurbish 
the aircraft and provide spare parts and training for its operation and 
maintenance.
Police and Justice Sector Assistance
    U.S. security assistance in Africa also includes support for 
nonmilitary forces, including police, border security officers, and 
justice sector officials. The State Department administers most 
nonmilitary security assistance, much of which is funded through the 
International Narcotics and Law Enforcement (INCLE) and 
Nonproliferation, Antiterrorism, Demining and Related Programs (NADR) 
accounts.\35\ INCLE funds support a range of country-specific, 
regional, and global programs that aim to build partner-country 
capacity to combat transnational crime, disrupt illicit trafficking, 
and extend the rule of law. In Africa, some INCLE programs work 
exclusively with police and/or focus on counternarcotics capacity-
building, while others focus on police and justice sector reform, 
border security, efforts to counter wildlife poaching, and other aims. 
NADR-funded Anti-Terrorism Assistance (ATA) and Regional Strategic 
Initiative (RSI) programs, among others, are key vehicles of U.S. 
counterterrorism assistance on the continent, and NADR funding supports 
components of TSCTP and PREACT.\36\ Programs funded through NADR and 
Economic Support Fund (ESF)--which can be administered by either the 
State Department or the U.S. Agency for International Development 
(USAID)--also support efforts to counter violent extremist ideology and 
recruitment among vulnerable populations in several African countries.
 obama administration security initiatives & the fy 2016 budget request
    The Obama administration has overseen a significant increase in 
security assistance spending in sub-Saharan Africa and has proposed 
even more sizable increases in FY 2015-FY 2016--notably through the new 
Counterterrorism Partnerships Fund (CTPF), first proposed in 2014, and 
through new security initiatives rolled out during the U.S.-African 
Leaders Summit (ALS) hosted by President Obama in August 2014 in 
Washington, DC.
New Programs Announced During the 2014 U.S.-African Leaders Summit
    Security assistance initiatives announced during the August 2014 
U.S.-African Leaders Summit are expected to be funded through a mix of 
State Department and DOD accounts. Sometimes referred to as ``ALS 
Deliverables,'' these include the following:
    Security Governance Initiative (SGI). SGI is ``a new joint 
adventure between the United States and six African partners that 
offers a comprehensive approach to improving security sector governance 
and capacity to address threats.'' \37\ The initiative is focused on 
both civilian (e.g., police) and military security institutions, and on 
the ministerial functions that oversee the security sector. The 
partners are Ghana, Kenya, Mali, Niger, Nigeria, and Tunisia. The 
administration has committed $65 million for SGI in FY 2015 and $83 
million per year thereafter, with no specified end-date. The State 
Department's FY 2016 request includes $16.9 million in PKO funding for 
SGI, and SGI is mentioned as a target for an unidentified amount of 
Africa Regional INCLE funding (which totals $17 million). DOD Overseas 
Contingency Operations (OCO) funds have been identified as a major 
source of requested SGI funding--the FY 2016 request includes $47 
million for SGI in its CTPF request (see below).
    African Peacekeeping Rapid Response Partnership (APRRP).\38\ APRRP 
is a new program to provide specific African countries with relatively 
high-level military capabilities for use in AU and U.N. peacekeeping 
deployments. Such capabilities may include military logistics, airlift, 
field hospitals, and formed police units; equipment transfers are 
expected to be a significant component.\39\ In the near-term, APRRP is 
focused on six countries: Senegal, Ghana, Ethiopia, Rwanda, Tanzania, 
and Uganda. The administration has committed to $110 million per year 
for APRRP, starting in FY 2015 and ending no later than FY 2019. 
Initial funding in FY 2015 is expected to be notified through FMF and 
PKO; the FY 2016 request includes $110 million in PKO funding for 
APRRP.\40\
    African Capacity for Immediate Response to Crisis (ACIRC). ACIRC is 
a planned AU military force intended to provide rapid intervention 
capacity for peacekeeping, crisis-response, and disaster relief efforts 
on the continent. The administration committed to provide ``support, 
including training for headquarters staff and key enabler functions, 
such as engineers,'' to ``catalyze'' the AU's efforts to establish 
ACIRC.\41\ The administration pledged $3 million per year for ACIRC, 
starting in FY 2016, although a specific funding request is not 
included in the FY 2016 request. U.S. support to ACIRC appears to be on 
hold due to disagreement among AU member states over whether to proceed 
with the concept.\42\
The Administration's FY 2016 Budget Request
            DOD Funding
    DOD's FY 2016 budget request for the Counterterrorism Partnership 
Fund (CTPF) would represent a dramatic increase in overall security 
assistance for Africa and would dwarf State Department-administered 
funds for the region if authorized, appropriated, and obligated as 
proposed. The request, which totals $2.1 billion globally, includes 
approximately $1.27 billion for East Africa, the Lake Chad Basin, and 
Northwest Africa, building on planned, but yet to be notified or 
obligated, DOD CTPF funding of more than $460 million for these areas 
in FY 2015 (see Table 1 below). The planned FY 2015 funding would 
appear to be in addition to more than $180 million in 10 U.S.C. 2282 
(i.e., ``Section 1206'' counterterrorism train-and-equip) funding 
already notified to Congress for programs on the continent in this 
fiscal year ($39 million of which was notified for Tunisia). Planned 
and proposed initiatives for FY 2015 and FY 2016 include border 
security enhancements and various training and equipment programs, 
including, for East African partners, potential fixed wing and rotary 
lift capacity. Efforts to build counter-IED (improvised explosive 
device); command and control; logistics; medical; and intelligence, 
surveillance, and reconnaissance (ISR) and other capabilities are also 
envisioned.
    Approximately $25 million of the proposed FY 2016 funding for the 
Africa regional CTPF programs could be used, according to the request, 
to fund the lift and sustainment of allies, potentially France, a key 
partner leading counterterrorism missions on the continent. The Senate 
draft NDAA for FY 2016 would authorize the provision of up to $100 
million in nonreimbursable logistical support per year to allied 
military forces conducting counterterrorism operations in Africa, an 
authority similar to DOD's existing Global Lift and Sustain (10 
U.S.C.127d).


    TABLE 1. THE COUNTERTERRORISM PARTNERSHIP FUND: DOD'S FY 2016 OCO
                                 REQUEST
                          [Dollars in millions]
------------------------------------------------------------------------
                Region                    FY 2015 Plan   FY 2016 Request
------------------------------------------------------------------------
Sahel/Maghreb.........................             113              262
Lake Chad Basin.......................             133              338
East Africa...........................             220              669
 
  TOTAL, for Africa...................             460            1,270
 
  TOTAL, Global.......................           1,300            2,100
------------------------------------------------------------------------
Source: FY 2016 DOD Congressional Budget Justification


            State Department Funding
    PKO. The State Department has requested almost $340 million in PKO 
specifically for Africa in FY 2016 (68 percent of the global total, 
including OCO).\43\ This includes $131 million for Africa regional 
programs, under which $110 million would go to APRRP, with the 
remainder divided among PREACT, ACSBS, AMEP, and AMSI. In addition, 
$115 million is requested to support AMISOM and the Somali military. 
With the conflict ongoing in South Sudan, $30 million requested in PKO 
funds for that country would likely go to supporting efforts to resolve 
or enforce stability there, including through support for a regional 
conflict monitoring mechanism. Funds for security sector reform 
initiatives in the DRC ($14 million), CAR ($10 million), and Liberia 
($2 million) are also included, as is a $19 million request for TSCTP. 
In addition to the $340 million requested for Africa-specific programs, 
a significant portion of the $64 million request for GPOI would likely 
benefit African countries contributing to peacekeeping missions and 
AMISOM.
    The FY 2016 global PKO request reflects a significant increase from 
the FY 2015 request, notably to support the new APRRP initiative. 
Requested funding for Africa would be an increase from appropriated FY 
2014 levels ($157 million for African programs, not including 
approximately $143 million for the assessed U.S. contribution to the 
U.N. logistics support mission for AMISOM, known as UNSOA).
    FMF. The FY 2016 request includes $19 million in FMF for Africa 
(less than 1 percent of the global total), compared to $16 million in 
FY 2014 (ibid). Top African FMF recipients in FY 2014 were Liberia ($4 
million), Niger ($2 million), Kenya ($1.7 million), Nigeria ($1.7 
million), and Djibouti ($1.4 million). Some of this funding was 
provided through two regional FMF programs (totaling $5 million), for 
maritime security and to sustain counterterrorism equipment provided 
with PKO and DOD funds.
    IMET. The FY 2016 request includes $16 million in IMET for African 
countries (14 percent of the global total), roughly the same as in FY 
2014 (which amounted to 15 percent of the total). Top African IMET 
recipients in FY 2014 were Senegal ($901,000), Nigeria ($779,000), 
Kenya ($748,000), South Africa ($715,000), Ghana ($668,000), Mozambique 
($630,000), Ethiopia ($589,000), Botswana ($576,000), Uganda 
($569,000), and Burundi ($504,000).
    NADR. The FY 2016 request includes $45 million in NADR for Africa 
in the enduring budget (7.4 percent of the global total, not including 
OCO). In FY 2014, Africa received $42 million in NADR funding (6 
percent of the global total, including OCO), with top African 
recipients including Kenya ($7 million for counterterrorism and border 
security), Angola ($6 million for post-conflict demining assistance), 
and South Sudan ($2 million for demining and conventional weapons 
destruction). However, the majority of NADR funding appropriated 
specifically for Africa ($23 million) was allocated as ``regional'' 
funding, for which a breakdown by country is not publicly available.
    In addition to the FY 2016 enduring budget request for NADR, the 
State Department is requesting $390 million in NADR-OCO funding for its 
portion of the President's Counterterrorism Partnership Fund (Congress 
did not appropriate funds for the CTPF for the State Department in FY 
2015). This request, if appropriated, would represent the most 
significant increase in recent years in U.S. efforts to build civilian 
counterterrorism capabilities and to counter violent extremism and 
radicalization in Africa, with up to $250 million proposed to prevent 
and counter terrorist safe havens in the Horn of Africa ($90 million), 
the Sahel ($90 million), and in Libya and neighboring countries ($70 
million). Another portion of funding under this request, $60 million to 
address foreign terrorist fighters, could focus, in part, on North 
Africa, which has been a significant source of foreign fighters, but 
also potentially on East Africa. Further, West Africa has been 
identified as one of several focus regions for a $20 million initiative 
requested under the CTPF to counter Iranian-sponsored terrorism. These 
initiatives would be managed by the State Department Counterterrorism 
Bureau, in collaboration with regional and other functional bureaus.
    INCLE. The FY 2016 request includes $49 million in INCLE for Africa 
(4.1 percent of the global INCLE request, including OCO funding). This 
would represent a decrease compared to $66 million in FY 2014 (4.8 
percent of the global total). Top INCLE recipients in Africa in FY 2014 
were South Sudan ($21 million), Liberia ($12 million), and DRC ($3 
million). Nearly $24 million was allocated to the State Department's 
``Africa Regional'' program, from which multiple countries may benefit.
    Peace Operations Response Mechanism--OCO. In addition to funds 
requested under these accounts, the administration has requested $150 
million in FY 2016 for a new OCO account, the proposed Peace Operations 
Response Mechanism, to support potential peacekeeping requirements in 
Africa or Syria. The request is driven in part by unanticipated 
missions that have emerged in Africa in recent years, namely in CAR, 
South Sudan, and Mali. Congress did not appropriate funds in FY 2015 
for a similar request, then called the Peacekeeping Response Mechanism, 
although it did provide transfer authority of up to $380 million to 
support such requirements, as required beyond funding made available in 
CIPA and PKO.\44\
   u.s. security assistance: evaluating progress and mitigating risk
    Assessing the impact and effectiveness of U.S. security assistance 
is difficult. Neither the State Department nor DOD have used consistent 
metrics to systematically measure progress or evaluate the results of 
such assistance over time. Instead, for some State Department programs, 
such as PREACT and TSCTP, the Government Accountability Office (GAO) 
reports that the agencies appear to have relied primarily on informal 
feedback from U.S. embassy staff to determine progress.\45\ Other 
programs, like GPOI, which has its own evaluation team, have considered 
the number of individuals trained as one of several measures of 
success. DOD developed a qualitative assessment framework for 
evaluating Section 1206 programs and first reported on its results in 
2013; its internal assessments, however, have not been publicly 
released. The lack of comprehensive assessment criteria, analysis, and 
supporting documentation poses challenges not only for conducting 
qualitative assessments, but also for the Departments' decisionmaking 
on future programming and resource allocation, and for congressional 
oversight. Several assessments have raised concerns with the timeliness 
of security cooperation programs, the ``patchwork'' nature of current 
authorities, programs, and resources; and some partner nations' 
capacity to absorb such assistance.\46\ Analysts have identified other 
shortfalls in the planning and implementation of U.S. security 
assistance programs in Africa, including insufficient efforts to track 
the trajectory of participants in military training engagements and 
persistent interagency disagreements as to where identified threats 
rank among U.S. national security priorities.\47\ Both Departments have 
undertaken efforts to improve program monitoring and evaluation, 
although the result of those efforts, and the extent to which they are 
coordinated among agencies, are unclear at this time.\48\ Measuring 
longer term impacts for some capacity-building programs may remain a 
challenge, given varying degrees of capability and political will on 
the part of recipient countries to bear sustainment costs, and limited 
U.S. resources and authorities for maintaining the capabilities built 
under programs like those funded under 10 U.S.C. 2282 authority.\49\
    Mitigating the potential risks associated with the provision of 
security assistance to fragile states in Africa is another challenge 
for the administration and Congress. A recent RAND study suggests that 
U.S. officials face a major policy dilemma in Africa, where ``the 
countries that are most in need of assistance are usually the ones 
least able to make positive use of it.'' \50\ That study, which 
assessed quantitative and qualitative research on the impact of 
security assistance in fragile states, found significant overlap 
between ``countries of concern'' in Africa (i.e., countries with low 
scores on indicators of state reach) and key U.S. counterterrorism 
partners (the TSCTP and PREACT partner countries). Democratic trends in 
Africa have raised concerns. Freedom House, which ranks levels of 
freedom around the world, suggests that the region has experienced 
backsliding over the past decade, with 43 percent of sub-Saharan 
African countries ranking Not Free and another 37 percent ranking 
Partially Free in its 2015 Freedom in the World index. From Burkina 
Faso to Burundi, a number of incumbent African leaders have taken steps 
to extend their terms in office, often prompting mass protests and, in 
some cases, violent responses from security forces. Several top 
security assistance recipients under current counterterrorism programs 
and proposed ALS deliverables have leaders who have been in office for 
more than 15 years, namely Cameroon, Chad, Djibouti, Rwanda, and 
Uganda. Armed forces reportedly continue to play a significant role in 
politics and governance in several top U.S. security partner countries, 
including Ethiopia, Mauritania, and Uganda, and the State Department's 
own annual human rights reports have raised concerns with security 
force abuses in many of the countries considered ``partners'' in 
security cooperation programs.
    The United States has taken measures to limit the potential for 
U.S. security assistance to be associated with abusive foreign 
governments and security forces through policy determinations and legal 
restrictions on aid. Among such restrictions are the so-called ``Leahy 
laws,'' which prohibit the provision of U.S. security assistance to 
foreign security force units that have been credibly implicated in 
gross violations of human rights.\51\ Congress also prohibits foreign 
assistance to governments that have overthrown elected governments 
through military coups, and has enacted various other country-specific 
legal provisions related to security assistance and human rights 
concerns through provisions in annual appropriations and country-
specific or issue-specific legislation. The Child Soldiers Prevention 
Act of 2008 (CSPA, P.L. 110-457), as amended, for example, restricts 
IMET, FMF, PKO for certain purposes, and the licensing of EDA and 
Direct Commercial Sales (DCS) to countries implicated in the use of 
child soldiers. Six of the nine countries currently implicated are in 
Africa. Among them, however, the President has determined it to be in 
the national interest to waive the restriction for Rwanda and Somalia, 
and to provide a partial waiver for certain types of military aid in 
CAR, DRC, and South Sudan. Only Sudan (along with Myanmar and Syria) 
did not receive a Presidential waiver.\52\ Some critics suggest that 
such waivers limit the effectiveness of the law and discourage 
accountability.\53\ The administration contends, however, that such 
waivers allow the United States to support military professionalization 
and participation in peacekeeping and counterterrorism operations. 
These considerations highlight the challenges U.S. policymakers face as 
they weigh the opportunities and potential consequences of security 
assistance in the region.
    Thank you again for the opportunity to testify about these issues. 
I look forward to your questions.

----------------
End Notes

    \1\ This prepared statement includes contributions from CRS Analyst 
in African Affairs Alexis Arieff and Specialist in Middle East Affairs 
Christopher M. Blanchard.
    \2\ See, e.g., The White House, ``Fact Sheet, U.S. Security Sector 
Assistance Policy,'' April 5, 2015.
    \3\ The document asserted that ``ultimately we see very little 
traditional strategic interest in Africa,'' but did note significant 
U.S. political and humanitarian interests. DOD Office of International 
Security Affairs, ``United States Security Strategy for Sub-Saharan 
Africa,'' August 1995.
    \4\ Hearing of the House Committee on Appropriations Subcommittee 
on Foreign Operations, ``Foreign Assistance and Related Programs 
Appropriations for 1987,'' March 18, 1986.
    \5\ Of the more than $1.4 billion provided to date to counter al-
Shabaab and protect Somalia's emergent national government since 2007, 
$1.2 billion has supported the African Union Mission in Somalia 
(AMISOM) and $220 million has supported the Somali National Army. The 
AMISOM assistance funded through the State Department includes almost 
$440 million in voluntary support and almost $500 million in assessed 
contributions to the U.N. logistics support mission for AMISOM (UNSOA). 
DOD funding for AMISOM forces has totaled almost $300 million, to date.
    \6\ See, e.g., Bronwyn Bruton and Paul D. Williams, 
``Counterinsurgency in Somalia: Lessons Learned from the African Union 
Mission in Somalia, 2007-2013,'' Joint Special Operations University 
Report 14.5, September 2014.
    \7\ Estimates of African countries' defense spending data obtained 
from the International Institute for Strategic Studies, ``The Military 
Balance 2015.''
    \8\ Department of Defense, ``2014 Quadrennial Defense Review,'' 
March 2014.
    \9\ Prior to AFRICOM becoming a stand-alone command in October 
2008, U.S. military involvement in Africa was divided among European, 
Central, and Pacific Commands. AFRICOM's area of responsibility (AOR) 
includes all African countries except Egypt, which remains in the area 
of operations of Central Command (CENTCOM).
    \10\ The four pillars are: strengthen democratic institutions; spur 
economic growth, trade, and investment; advance peace and security; and 
promote opportunity and development. Within the peace and security 
pillar, the administration identified five main lines of effort: 
counter al-Qaeda and other terrorist groups; advance regional security 
cooperation and security sector reform; prevent transnational criminal 
threats; prevent conflict and, where necessary, mitigate mass 
atrocities and hold perpetrators responsible; and support initiatives 
to promote peace and security.
    \11\ U.N. Peacekeeping Troop Statistics for U.N. Missions in April 
2015, available at www.un.org/en/peacekeeping/resources.
    \12\ For more information, see, e.g., Paul D. Williams, ``Peace 
Operations in Africa: Lessons Learned since 2000,'' Africa Security 
Brief no. 25, National Defense University, July 2013.
    \13\ The AU mission in Mali transitioned into a U.N. peacekeeping 
mission in 2013, and no longer has a specific mandate to conduct 
counterterrorism operations.
    \14\ Testimony of Defense Secretary Ash Carter, Senate 
Appropriations Defense Subcommittee, ``Hearing on the FY 2016 Budget 
Request for the Department of Defense,'' May 6, 2015.
    \15\ Testimony of Gen. David Rodriguez, Senate Armed Services 
Committee, ``AFRICOM 2015 Posture Statement,'' March 26, 2015.
    \16\ For more information on DOD's management of security 
assistance programs, see the Defense Institute of Security Assistance 
Management's manual, ``The Management of Security Cooperation'' (The 
Green Book), available at www.disam.dsca.mil.
    \17\ Funds for CIPA are appropriated in the legislation that funds 
State Department operations, rather than in the Foreign Operations 
appropriation, which governs foreign assistance, including PKO funds.
    \18\ PKO was first authorized under the International Security 
Assistance Act of 1978 (P.L. 95-384) as Sec. 551 of the FAA.
    \19\ GPOI, created in FY 2005, built on and incorporated a 
preexisting peacekeeping capacity program for African countries, known 
as the African Contingency Operations Training and Assistance (ACOTA) 
program. From FY 1997 to FY 2005, the United States spent just over 
$120 million on ACOTA and its predecessor, the African Crisis Response 
Initiative (ACRI). An additional $33 million in FMF funding supported 
classroom training under the Enhanced International Peacekeeping 
Capabilities (EIPC) initiative from FY 1998 to FY 2005. GPOI was 
originally intended to be a $660 million, five-year program to train 
75,000 troops by 2010; it surpassed that target, training nearly 87,000 
peacekeepers during that time, 77,000 of them African. GPOI has been 
extended, with a new goal of training an additional 242,500 troops and 
building sustainable partner nation training capabilities.
    \20\ TSCTP partner countries are Algeria, Burkina Faso, Cameroon, 
Chad, Mali, Mauritania, Morocco, Niger, Nigeria, Senegal, and Tunisia. 
PREACT partner countries are Burundi, Comoros, Djibouti, Ethiopia, 
Kenya, Seychelles, Tanzania, and Uganda.
    \21\ TSCTP builds on an earlier program known as the Pan-Sahel 
Initiative (PSI, 2002-2004).
    \22\ To date, the State Department has notified its intent to 
support the following countries under this counter-poaching effort: 
Tanzania, Botswana, Namibia, Mozambique, and South Africa.
    \23\ DOD defines stability operations as ``military and civilian 
activities conducted across the spectrum from peace to conflict to 
establish or maintain order in States and regions.''
    \24\ Robert M. Gates, ``A Balanced Strategy: Reprogramming the 
Pentagon for a New Age,'' Foreign Affairs, January-February 2009.
    \25\ Section 2282 of P.L. 113-291. Congress initially authorized 
Section 1206 in part to address lengthy administrative and procurement 
delays in similar State Department-funded programs, notably FMF. 
Section 1206, which requires the concurrence of the Secretary of State, 
was designed to improve the capabilities of foreign forces to conduct 
counterterrorism operations or to participate in stabilization 
operations with U.S. forces. For more information see CRS Report 
RS22855, Security Assistance Reform: ``Section 1206'' Background and 
Issues for Congress, by Nina Serafino.
    \26\ Section 1207(n) of the FY 2012 NDAA (P.L. 112-81) and Section 
1203 of the FY 2013 NDAA (P.L. 112-239) authorize DOD to provide up to 
$75 million annually from FY 2012 through FY 2014 to build the capacity 
of foreign militaries serving in AMISOM. Section 1206 of the FY 2012 
NDAA (P.L. 112-81), not to be confused with the original ``Section 
1206'' (of the FY 2006 NDAA) authority, authorized DOD to provide up to 
$35 million per year in FY 2012 and FY 2013 to support Ugandan-led 
counter-LRA operations. The latter authority was followed by Section 
1208 of the FY 2014 NDAA (P.L. 113-66), which authorizes up to $50 
million per year through FY 2017.
    \27\ AFRICOM's AOR also includes Tunisia, which has received more 
than $80 million in additional Section 1206 assistance.
    \28\ First authorized as Sec. 1207 of the FY 2012 NDAA (P.L. 112-
81), the GSCF authority was codified as 22 U.S.C. 2151. The authority 
was extended through September 30, 2017, under the FY 2015 NDAA.
    \29\ For more information, see, e.g., U.S. Government 
Accountability Office (GAO), ``Building Partner Capacity: State and DOD 
Need to Define Time Frames to Guide and Track Global Security 
Contingency Fund Projects,'' GAO-15-75, November 20, 2014 and CRS 
Report R42641, ``Global Security Contingency Fund: Summary and Issue 
Overview,'' by Nina M. Serafino.
    \30\ The Combatting Terrorism Fellowship Program (CTPF) is 
authorized under 10 U.S.C. Section 2249c.
    \31\ MoDA was developed as a result of lessons learned in 
Afghanistan and Iraq, where security assistance had focused largely on 
building tactical proficiencies, with little focus on ministerial 
capacity building. DOD civilians serve as advisors to their foreign 
counterparts in partner nation defense ministries. DIRI, established in 
FY 2010, also supports the development of partner defense ministries 
through the provision of subject matter experts.
    \32\ Some African militaries benefit from training through 
interaction with U.S. Special Operations Forces in Joint Combined 
Exchange Training events (JCETs). U.S. forces routinely conduct a 
variety of bilateral and multilateral joint exercises with African 
militaries, such as African Endeavor, an annual communications and 
interoperability exercise with more than 30 African nations. Operation 
Flintlock, hosted annually in a Sahel country, is a multinational 
exercise that supports counterterrorism, rapid-response, and 
interoperability capacity among West and North African countries, 
similar objectives to TSCTP. African Lion, an annual exercise in 
Morocco that involves over 1,000 U.S. troops, has expanded since 2014 
to include military forces from neighboring states and Europe in 
addition to Moroccan and U.S. soldiers. Offshore, the Africa 
Partnership Station (APS) is U.S. Naval Forces Africa's flagship 
maritime security program, which aims to increase partner naval forces' 
maritime awareness, response capabilities and infrastructure. DOD also 
conducts educational and academic exchange programs through several 
regional centers, including the Africa Center for Strategic Studies 
(ACSS), and DOD's service academies. The U.S. National Guard also 
engages with African militaries through its State Partnership Program, 
in which U.S. National Guard units pair with foreign countries to 
conduct a variety of security cooperation and civil affairs activities.
    \33\ For more information, see CRS Report R42094, ``The Lord's 
Resistance Army: The U.S. Response.''
    \34\ Michael R. Gordon, ``U.S. Signals Willingness to Expand 
Military Cooperation with Nigeria,'' New York Times, May 29, 2015.
    \35\ As noted above, DOD's ``Section 1004'' and ``Section 1033'' 
authorities also authorize DOD to provide counternarcotics assistance 
to civilian security forces.
    \36\ For further information on ATA, RSI, and other NADR-funded 
counterterrorism programs, see State Department Bureau of 
Counterterrorism, ``Annual Report on Assistance Related to 
international Terrorism: Fiscal Year 2013'' [latest available], 
February 11, 2014.
    \37\ White House, ``Fact Sheet: Security Governance Initiative,'' 
August 6, 2014.
    \38\ See White House, Fact Sheet: ``U.S. Support for Peacekeeping 
in Africa,'' August 6, 2014.
    \39\ In congressional staff briefings, administration officials 
have portrayed APRRP as filling gaps in existing U.S. military 
capacity-building programs in Africa, including military grants 
provided through FMF and peacekeeping training and equipment provided 
through the ACOTA program.
    \40\ To date, the State Department has notified $15.5 million in FY 
2015 PKO funds for APRRP, for Ethiopia.
    \41\ ``Fact Sheet: U.S. Support for Peacekeeping in Africa,'' op. 
cit.
    \42\ See, e.g., Jason Warner, ``Complements or Competitors? The 
African Standby Force, the African Capacity for Immediate Response to 
Crises, and the Future of Rapid Reaction Forces in Africa,'' African 
Security, March 2015.
    \43\ This figure is based on CRS calculations from the PKO request 
in the FY 2016 Congressional Budget Justification. It may include some 
limited funding for Algeria, Morocco and Tunisia through TSCTP and SGI.
    \44\ Section 8003(d) of P.L. 113-235.
    \45\ See GAO, ``Combating Terrorism: U.S. Efforts in Northwest 
Africa Would be Strengthened by Enhanced Program Management,'' GAO-14-
518, June 2014 and ``Combating Terrorism: State Department Can Improve 
Management of East Africa Program,'' GAO-14-502, June 17, 2014.
    \46\ See, e.g., Jennifer D.P. Moroney, David E. Thaler, and Joe 
Hogler, ``Review of Security Cooperation Mechanisms Combatant Commands 
Utilize to Build Partner Capacity,'' RAND Corporation, 2013 and 
Christopher Paul, et al., ``What Works Best When Building Partner 
Capacity and Under What Circumstances?,'' RAND Corporation, 2013.
    \47\ Lesley Anne Warner, ``The Trans Sahara Counter Terrorism 
Partnership, Center for Naval Analysis,'' March 2014.
    \48\ The State Department's Political-Military Bureau is leading 
its efforts to expand monitoring and evaluation of FMF and IMET 
programs. A brief overview of this effort is described in the 
Department's FY 2016 Congressional Budget Justification.
    \49\ See GAO, ``Building Partner Capacity: Key Practices to 
Effectively Manage Department of Defense Efforts to Promote Security 
Cooperation,'' GAO-13-335T, February 14, 2013.
    \50\ The RAND study cites quantitative studies on the aggregate 
effect of U.S. security assistance, noting that ``material assistance 
(particularly arms transfers) has generally been found to be more 
problematic than assistance focused on training and education. Weak and 
autocratic states have difficulty making positive use of security 
sector assistance, and in many studies, such assistance was found to 
have potentially destabilizing effects.'' Stephen Watts, ``Identifying 
and Mitigating Risks in Security Sector Assistance for Africa's Fragile 
States,'' RAND Corporation, 2015.
    \51\ The original Leahy law was codified in 1976 in 2007 in Section 
620M of the Foreign Assistance Act (FAA) of 1961, as amended (22 U.S.C. 
2378d). It applies to assistance provided through State Department and 
Foreign Operations appropriations. The DOD Leahy law, which applies to 
DOD appropriations and had appeared in annual appropriations acts since 
1998, was codified in the FY 2015 NDAA as 10 U.S.C. Sec. 2249e. For 
more information, see CRS Report R43361, ``Leahy Law Human Rights 
Provisions and Security Assistance: Issue Overview,'' by Nina M. 
Serafino, et al.
    \52\ The most recent was released in June 2014; it includes the 
CAR, DRC, Rwanda, South Sudan, Sudan, and Somalia.
    \53\ See, e.g., World Vision, ``Child Soldier Prevention Law: 
Partial Enforcement Lets Some Offending Countries Off the Hook,'' 
October 2, 2014 and Human Rights Watch, ``U.S.: Don't Finance Child 
Soldiers,'' October 3, 2011.

    Senator Flake. Thank you for that testimony. You touched on 
some of what was spoken on before. Let me follow up on that.
    What differences exist between the reporting done by the 
State Department and reporting done by DOD? It is more robust, 
I think, with DOD. And what needs to change to give us a better 
picture and be able to, as you mentioned, look at some return 
on investment.
    Ms. Blanchard. The reporting requirements are different. 
Some of that may be, in part, because some of the DOD 
authorities are newer. When they were created, they were 
created specifically with these reporting requirements. For 
section 1206 and GSCF, for example, the Global Security 
Contingency Fund, which are two of the larger DOD building 
partner capacity initiatives, global train and equip--there is 
a lot of lingo that goes along with these acronyms--those 
reports require specific country breakdowns. They require 
identification of units to be trained, identification of 
specific equipment/ammunition transfers, whereas on the State 
Department side, particularly for some of the PKO programs, you 
do not get that level of breakdown.
    For the GPOI program, the Global Peacekeeping Operations 
Initiative, when the State Department notifies, they notify 
with fairly large lump sums with a large description of the 
types of equipment--or not the types of equipment. But there 
will be equipment provided, possibly ammunition, types of 
training. And then they will list, depending on the program, 5 
to 20 countries. That is not always the case. Sometimes there 
are direct sort of country-specific notifications, but the 
level of detail is greater in the DOD notifications.
    The DOD notifications also, by the way, indicate past 
related assistance, both from DOD and from the State 
Department. So they give a better sense of sort of the picture 
of overall security assistance engagement on these initiatives.
    Senator Flake. We have seen over time a decrease in State 
Department assistance and an increase in defense funding. Is 
that a function of where it is easiest to get the money, or is 
there a strategic reason for that? What is your assessment?
    Ms. Blanchard. Well, State Department security assistance, 
at least to Africa, has been rising. I cannot say that that is 
the same for democracy and governance assistance or some of 
those efforts.
    Senator Flake. I should say I guess Defense has risen much 
faster. Put it that way.
    Ms. Blanchard. Defense is rising faster. These are newer 
authorities and they do reflect a changing perception of the 
use of security assistance by DOD and by congressional 
authorizers and appropriators about the appropriate role of DOD 
in providing that assistance. But, yes, as very much indicated 
by the CTPF in particular, but also the growth of 1206, those 
are larger sums of money than the State Department is 
potentially going to be dealing with.
    Senator Flake. You mentioned the problem of some of our 
military hardware ending up in the wrong hands. How prevalent 
has that been in Africa? Obviously, we are seeing it in Iraq in 
a big way. Some of the training mentioned in the previous 
panel, some of the folks that we have trained then move on and 
go to the dark side, if you will. What do we know in terms of 
military hardware that has ended up with those who want to 
bring down the governments that we support?
    Ms. Blanchard. Well, the public domain reporting on this is 
pretty challenging. We rely on groups like the Small Arms 
Survey and other independent monitoring groups to report on 
weapons/ammunition origins when they find them. So a lot of 
this is anecdotal. We do, for both the State Department and 
DOD, have end-user monitoring requirements. I think there is 
probably some debate about the extent to which those are really 
stringently followed up. Particularly in the case of some of 
the smaller transfers, it is easier to monitor whether or not a 
foreign military is keeping track of its helicopters than it is 
smaller things. They do track particularly, for example, with 
AMISOM serial numbers of weapons. In the early years of AMISOM, 
you did have diversion, and I think that that has been 
something that the State Department has worked pretty hard to 
address. But willingness of partner nations to have their 
stocks routinely monitored is difficult, and we do have some 
cases on the continent where the State Department and DOD have 
found that our partner nations have not been securing 
equipment, important equipment, in the way that we would like 
to see it.
    Senator Flake. With Nigeria now looking like they will be 
more cooperative and more willing to work on security, what 
should we be concerned about going ahead? It looks as if, given 
the rise of Boko Haram, there is a need to help there with a 
willing government, which we have not had a capable government 
to work with. As we launch into probably more robust 
partnerships there, what are some of the things we need to keep 
in mind and start from the beginning?
    Ms. Blanchard. Well, President Buhari faces a number of 
challenges in turning the ship around on the military effort 
against Boko Haram. Human rights abuses, such as those raised 
in the Amnesty International report, are a very important part 
of that. There are a number of very senior Nigerian military 
officials that were named in that report, some of whom attended 
his inauguration. And I think it will be telling to see how 
quickly he deals with the charges against those individuals and 
proceeds potentially with cases against them.
    Beyond the human rights abuses, which is a very serious 
challenge and apparently fairly widespread in the northeast, 
there are very serious questions about corruption within the 
security forces. This is something that President Buhari has 
put a lot of attention and rhetoric into, but it is going to be 
very difficult for him to turn that around in a way that 
ensures that guns and ammunition and protective gear are 
getting out to the front lines. But it is something that he has 
committed to.
    I think the challenge, in terms of U.S. engagement, is how 
quickly do we engage knowing that those processes, both on the 
corruption side and human rights side, could take a little 
while to take effect.
    Senator Flake. Thank you.
    You mentioned in your testimony the difficulty in working 
along with partners who we have problems with on human rights 
and on another side. We do that everywhere in the world, 
obviously. You cannot always pick your partners. Is this a more 
difficult scenario in Africa than elsewhere?
    Ms. Blanchard. I cannot say whether it is more difficult in 
Africa than it is elsewhere.
    Senator Flake. But we have seen examples over in the Horn 
particularly with South Sudan, Uganda, and some of the other 
partner countries. That has been a difficult arrangement.
    Ms. Blanchard. I think some of the biggest challenges and 
concerns center around cases where human rights abuses by 
security forces may undermine some of our very strategic 
objectives. Kenya is a case that comes to mind where 
allegations against law enforcement officials in the context of 
antiterrorism operations have created a public perception that 
al-Shabaab uses for recruitment and radicalization. And the 
extent to which the United States is associated with that 
assistance and with that engagement with those units, it poses 
a challenge and those alleged abuses also contribute to the 
extremist narrative.
    Senator Flake. Well, thank you. Chairman Markey is detained 
elsewhere, and so he will not be able to proffer any questions. 
But he has read the testimony. We appreciate your service and 
your testimony here today, and we will certainly be following 
up as we look for ways to have reporting at least that will 
allow us to better do our job here and protect taxpayers' money 
and make sure that we have the return on investment that we are 
expected to have. So thank you for your testimony here today.
    The record will remain open until close of business Friday, 
June 5, for any questions for the record or additional 
material.
    This hearing is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Response of Linda Thomas Greenfield to Question 
                    Submitted by Senator Bob Corker

    Question. Describe the range of non-U.S. bilateral investment in 
Djibouti and its relevance in relation to U.S. assistance and 
investment both from a diplomatic as well as security interest 
perspective.

    Answer. Chinese and gulf investment flows in Djibouti are 
substantially larger than U.S. investment and assistance flows.
    The People's Republic of China is the most active bilateral 
investor in Djibouti today. China is financing railroads, ports, water 
projects, stadiums, and other large projects in Djibouti. The value of 
the two largest projects--approximately $850 million for a 
transnational railway and water pipeline from the Djiboutian Port to 
Ethiopia--is equivalent to almost half of the country's annual gross 
domestic product. China could leverage its important economic role and 
sizeable investments in other areas.
    The Gulf States are also significant investors in Djibouti. Emirati 
conglomerate Dubai Ports World built the Doraleh Container Terminal and 
the Kempinski Hotel in Djibouti. Concessionary loans from several Arab 
States financed the ongoing construction of a modern port in Tadjoura, 
which could help to revitalize the northern part of Djibouti. None of 
the Gulf States have a permanent military presence in Djibouti.
    The United States and the Republic of Djibouti enjoy a strong, 
close relationship. Djibouti is an indispensable partner on regional 
security, counterterrorism, and counterpiracy issues. President Obama's 
May 2014 meeting with President Guelleh, as well as Secretary Kerry's 
May 2015 visit to Djibouti, reflected our broadening bilateral 
partnership with Djibouti and our collaboration in advancing our shared 
vision for a secure, stable, and prosperous Horn of Africa. One of the 
Oval Office meeting's outcomes was the establishment of the annual 
U.S.-Djibouti Binational Forum (BNF). This ministerial-level strategic 
dialogue provides senior U.S. and Djiboutian officials the opportunity 
to discuss our areas of mutual interest, including economic 
development, regional security, and enhancing our bilateral 
relationship.
                                 ______
                                 

  Responses of Linda Thomas Greenfield and Puneet Talwar to Questions 
                    Submitted by Senator Bob Corker

    Question. 1a. Is the dramatic growth in security funding in the 
FY16 budget for DOD programs a result of incapacity to organize and 
manage such funding in the traditional State Department Political 
Military Affairs account programs?

    Answer. No. It is the case that the FY 2015 DOD budget expanded in 
the area of security assistance programs not related to combat 
operations, including the establishment of the $1.3 billion 
Counterterrorism Partnership Fund, the permanent codification and 
authority expansion of the scope of section 2282, and $175 million for 
the European Reassurance Initiative. And for FY 2016, the Senate Armed 
Services Committee's proposed FY 2016 NDAA includes $750 million more, 
including assistance for Ukraine, Southeast Asia, and military 
intelligence programs. However, the growth of DOD's budget in these 
areas does not signify any incapacity on the part of State's security 
assistance programs, even though it may reflect the reality of the 
latitude the respective budgets have to grow quickly to address certain 
security-related events.
    The Secretary of State has long had primary responsibility to 
direct and administer foreign assistance programs, on behalf of the 
President, including security assistance programs not related to combat 
operations, given their profound foreign policy ramifications.
     Efforts by the U.S. Government to strengthen the security forces 
of any foreign government should always be fully embedded within and 
consistent with our broader foreign policy aims and objectives. This 
administration affirmed this policy preference as emphasized in 
Presidential Policy Directive 23 of April 2013, the Foreign Assistance 
Act of 1961, as amended, and the Arms Export Control Act. Still, since 
9/11, there have been an emergence of new DOD foreign security 
assistance authorities, in part to address areas wracked by crisis and 
conflict, reflecting in part the involvement of U.S. forces and the 
ability of the Defense budget to grow to meet the mixed needs of 
funding forces and reconstruction assistance, for the most part renewed 
for stated periods.
    Still State's ongoing security assistance programs are important, 
and State has taken steps to ensure they remain effective in the face 
of evolving and complex challenges. For example, since 2009 State has 
made the FMF program more flexible, including through the creation of 
regional funds that are distributed bilaterally during the year of 
appropriation according to immediate priorities. In addition to 
regionalized funding, the State Department has instituted mandatory 
reviews of countries demonstrating absorption challenges or the ability 
to self-sustain, along with more rigorous joint development of long-
term security assistance plans that account for political will and 
program sustainability. Leveraging our assistance to secure political 
commitment and contributions from our partners will strengthen security 
sector outcomes and help ensure we achieve our foreign policy 
objectives.
    The State Department is also instituting the development of 
specific, measurable, and time-bound objectives for the security 
assistance it oversees, moving away from intuitive, sometimes 
ambiguous, and unending objectives (e.g., ``enhance counterterrorism 
capabilities'') toward concrete end states that demonstrate what we and 
the partner nation should expect from our investment of assistance 
dollars.
    These efforts have paid dividends. For example, in Africa, State 
was able to shift approximately $250 million to address emerging crises 
in Mali and Central African Republic, including logistics support for 
troops in Mali and equipment for Cameroon to support counter-Boko-Haram 
efforts. The State Department is also complementing assistance with 
major professionalization and defense reform efforts that are necessary 
to the long-term success of our security efforts in Africa, 
particularly in key partner countries such as the Democratic Republic 
of the Congo, Liberia, Cote d'Ivoire, Guinea, and more recently in 
Somalia, and CAR. The creation of the Africa Military Education Program 
(AMEP) in 2013 (which provides for instructor and curriculum 
development and select African military education institutions) and the 
new Security Governance Initiative (SGI) in 2015 are increasing 
resources for defense reform to complement our other efforts.

    Question. 1b. Is the DOD growth rate a function of jointly 
perceived necessity and agreed purpose between State and DOD?

    Answer. The Departments of State and Defense agree that security 
assistance is an essential tool for building our partners' capacity to 
address mutual security concerns, and both Departments believe that 
additional funding supports our foreign policy and national security 
objectives. Per Presidential Policy Directive 23, the administration 
supports a State Department lead on security assistance to ensure a 
holistic approach to advancing our foreign policy objectives. Where 
Defense authorities are developed in this realm, the administration has 
typically agreed that the Secretary of State must concur in the 
exercise of such authorities.

    Question. 1c. To what degree is the request a function of 
difficulty of gaining congressional support for 150 vs 050 account 
funding?

    Answer. The International Affairs budget function, from which State 
Department programs are funded, is realistically not as expansive as 
the Defense budget. But it should be noted that the Defense budget 
supports not only our troops, but also all of the current and future 
equipment they may require, which we know is very expensive. There are 
cases in which the Congress has provided more for security programs 
than to State. For example, in 2015, Congress appropriated $1.3 billion 
to DOD (out of its $4 billion request) for the Counterterrorism 
Partnership Fund, but declined to fund the administration's request for 
$1 billion in complementary funding for State. We appreciate that 
House's efforts to provide some funding to State for important CT 
activities in FY 2016 and hope that the Senate will follow suit.

    Question. 2a. What is the status of the effort to update/reform the 
Security Assistance portfolio to better define responsibility and 
integration of such assistance with United States foreign policy goals 
and expectations?

    Answer. In line with Presidential Policy Directive 23, the 
administration continually reviews the security sector assistance 
authorities available to it to ensure we have the right mix of tools to 
best advance our foreign policy and national security interests. 
Currently, the Department is re-looking at this issue in detail given 
the new or expanded security sector assistance authorities provided in 
the FY 2015 NDAA, some of which were not formally requested by the 
administration.

    Question. 2b. What is the vehicle that is/has been used to align 
the interagency on decisions surrounding the security sector assistance 
portion of the annual budget submission to Congress?

    Answer. As is the case with all agencies' legislative proposals, 
DOD proposals are submitted for interagency review through OMB, and the 
process of interagency review results in many legislative proposals 
being approved and some not. The former are submitted through official 
DOD channels to the Congress. Other new authorities are not the result 
of this review process.

    Question. 2c. What is the State Department position regarding the 
primacy of State Department responsibility and jurisdiction in security 
sector assistance decisionmaking as it relates to programs, funding 
levels, and authorities?

    Answer. The Secretary of State has long exercised, for the 
President, primary responsibility for the supervision and direction of 
all major USG foreign assistance, under the long-standing key 
comprehensive authorities under the basic foreign assistance statutes, 
as specifically provided in Section 622(c) of the Foreign Assistance 
Act of 1961 (22 U.S.C. 2382(c)), and section 2 of the Arms Export 
Control Act (22 U.S.C. 2752). The administration like prior successive 
ones, has reaffirmed the importance of the Secretary of State 
exercising these authorities robustly in order to ensure that such 
assistance best serves the broader foreign policy interests of the 
United States and is effectively integrated both at home and abroad.
                                 ______
                                 

               Responses of Amanda J. Dory to Questions 
                    Submitted by Senator Bob Corker

               non-u.s. bilateral investment in djibouti
    Question. Describe the range of non-U.S. bilateral investment in 
Djibouti and its relevance in relation to U.S. assistance and 
investment both from a diplomatic as well as security interest 
perspective.

    Answer. The People's Republic of China and the Gulf States are 
Djibouti's top foreign investors, investing substantially larger 
amounts than the United States invests in Djibouti. China is financing 
railroads, ports, water projects, stadiums, and other large projects. 
The value of the two largest projects--approximately $850 million for a 
transnational railway and a water pipeline from the Djiboutian port to 
Ethiopia--is equivalent to almost one-half of the country's annual 
gross domestic product.
    The Gulf States are also significant investors in Djibouti. Emirati 
conglomerate Dubai Ports World built the Doraleh Container Terminal and 
the Kempinski Hotel in Djibouti. Concessionary loans from several Arab 
States financed the ongoing construction of a modern port in Tadjoura, 
which could help to revitalize the northern part of Djibouti.
    With respect to security, the Gulf States, China, France, Japan, 
and the United States all share with Djibouti an interest in freedom of 
navigation in the Gulf of Aden and Red Sea, including countering the 
threat of piracy.
    The United States and the Republic of Djibouti enjoy a strong, 
close relationship. Djibouti is an indispensable partner on regional 
security, counterterrorism, and counterpiracy issues. U.S. investment 
in Djibouti is significantly less than that of other countries. One way 
in which the United States contributes to the economy of Djibouti is 
through the U.S. forces' presence at Camp Lemonnier, which is the only 
DOD facility in the U.S. Africa Command area of operations that hosts a 
sustained, significant presence of U.S. forces. Through a lease 
agreement with the Government of Djibouti, the U.S. Government makes a 
$63 million annual payment for use of Camp Lemonnier and other 
facilities; local purchases in support of Camp's operations also 
contribute to the economy.
    President Obama's May 2014 meeting with President Guelleh, as well 
as Secretary Kerry's May 2015 visit to Djibouti, reflect the importance 
of our bilateral partnership with Djibouti and our collaboration in 
advancing a shared vision for a secure, stable, and prosperous Horn of 
Africa region. A new U.S.-Djibouti Binational Forum (BNF) was 
established in 2015. This ministerial-level strategic dialogue provides 
senior U.S. and Djiboutian officials the opportunity to engage across 
the breadth of areas of mutual interest, including regional diplomacy, 
investment and economic development, and security.
          bilateral and regional security assistance programs
    Question. What is the Department of Defense position on the 
expanding number and cost of its bilateral and regional security 
related assistance programs and their coherence with broad U.S. foreign 
policy goals?

    Answer. Building bilateral and regional partner capacity is a 
foundation of our national security and defense strategies. Both, the 
Departments of State and Defense, rely on the funding and authorities 
granted by Congress to help achieve strategic objectives. Together, the 
Departments have established processes and mechanisms to ensure that 
our security cooperation programs are executed in a manner consistent 
with the broader foreign policy goals and objectives established by the 
Department of State. In this way, we ensure that Department of Defense 
resources and authorities are applied in a manner that is complementary 
with the way the State Department uses its resources and authorities.
    security funding growth in the fy16 budget for defense programs
    Question. Is the dramatic growth in security funding in the FY16 
budget for DOD programs a result of incapacity to organize and manage 
such funding in the traditional State Department Political Military 
Affairs account programs?

    Answer. No. The expansion in security-related assistance is a 
result of the increasing need for the U.S. Government to help build the 
capacity of our partners to participate in coalitions and as regional 
contributors to address shared security challenges. The Department of 
Defense relies on these partners to assist in the accomplishment of 
U.S. security-related objectives, and we rely on our partners to 
contribute to and to help maintain the security that our foreign and 
security policy seeks to promote. The Department of State's Bureau of 
Political-Military Affairs has a long history of successfully and 
effectively managing security assistance funding under State Department 
authorities and providing foreign policy oversight for Department of 
Defense security-related assistance programs designed to help build 
partner capacity.

    Question. Is the DOD growth rate a function of jointly perceived 
necessity and agreed purpose between State and DOD?

    Answer. The Departments of State and Defense agree that building 
partner capacity is a core part of both our national security and 
defense strategies. The President's budget requests consistently call 
for increases in foreign assistance funding. Congress has seen fit to 
provide the Department of Defense with capacity-building authorities, 
which are implemented in concert with the Department of State and 
directly support the Department's missions and broader U.S. national 
security objectives.

    Question. To what degree is the request a function of difficulty of 
gaining congressional support for 150 vs. 050 account funding?

    Answer. The Department of Defense (DOD) strongly supports increases 
in funding of Department of State (DOS) foreign assistance programs, 
including security assistance. DOD also has requirements for funding 
and authorities to build partner capacity in support of defense 
objectives. We view the funding for these DOD and DOS programs as 
entirely complementary. These mutually reinforcing programs build on 
the strengths of each of our Departments in pursuit of U.S. foreign 
policy and security objectives.
                                 ______
                                 

                 Response of Puneet Talwar to Question 
                  Submitted by Senator James E. Risch

    Question. The U.S.-Gulf Cooperation Council (GCC) Summit Joint 
Statement said, ``the leaders discussed a new U.S.-GCC strategic 
partnership to enhance their work to improve security cooperation, 
especially on fast-tracking arms transfers, as well as on 
counterterrorism, maritime security, cybersecurity, and ballistic 
missile defense.'' As a member of the GCC, please explain the 
administration's policy in regard to weapons transfers to Bahrain, and 
what limitations, if any, still exist in light of the Joint Statement.

    Answer. The administration's arms transfer policy toward Bahrain 
remains unchanged since 2012. The issue remains under review, but we 
have made no decision at this time to resume the shipment of restricted 
items. We will consult with Congress if and when there is a change in 
the policy.
    The U.S. Government continues to approve exports to Bahrain, on a 
normal case-by-case basis, of items related to external defense, 
counterterrorism and the protection of U.S. forces. At this time, the 
U.S. Government continues to withhold exports to Bahrain of crowd 
control items and other items that have a potential internal security 
use.

                                  [all]
</pre></body></html>
